   THE DEPARTMENT OF JUSTICE’S
EFFORTS TO COMBAT IDENTITY THEFT

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division

           Audit Report 10-21
              March 2010
                THE DEPARTMENT OF JUSTICE’S
             EFFORTS TO COMBAT IDENTITY THEFT

                        EXECUTIVE SUMMARY

       The Identity Theft and Assumption Deterrence Act of 1998 made
identity theft a federal crime. The Department of Justice (DOJ) and its
components, particularly the Federal Bureau of Investigation (FBI) and
United States Attorneys’ Offices (USAO), along with many other federal,
state, and local law enforcement agencies, play a vital role in combating this
crime through the investigation and prosecution of identity thieves. DOJ’s
non-law enforcement components also play an important part in combating
identity theft. For example, the Office of Justice Programs (OJP) funds
programs that assist identity theft victims and OJP’s Bureau of Justice
Statistics compiles identity theft-related statistics.

      According to recent estimates, identity theft is a growing problem. A
Federal Trade Commission report estimated that 8.3 million Americans were
victims of identity theft in 2005, resulting in losses of $15.6 billion. In
June 2009, a Deputy Assistant Attorney General for the DOJ’s Criminal
Division testified that a more recent estimate suggested that identity theft
was the fastest growing crime in 2008, victimizing more than 10 million
Americans.

       According to DOJ personnel, federal identity theft investigations most
often relate to other federal crimes such as cyber intrusions, health care
fraud, mortgage fraud, and credit card fraud. Identity theft can also be a
significant element of violent crimes, such as domestic abuse and even
terrorism, and a significant number of identity theft-related crimes originate
overseas.

      In recognition of the harm caused by identity theft, President
George W. Bush signed an executive order on May 10, 2006, creating the
President’s Identity Theft Task Force (President’s Task Force). The purpose
of the President’s Task Force was to “use federal resources effectively to
deter, prevent, detect, investigate, proceed against, and prosecute unlawful
use by persons of the identifying information of other persons.” The
President’s Task Force was chaired by the Attorney General, with the
Chairman of the Federal Trade Commission serving as the co-chair.

       In April 2007, the President’s Task Force issued a strategic plan that
made recommendations to federal agencies involved in combating identity
theft, including DOJ and some of its components. The President’s Task Force


                                          i
later issued a follow-up report in September 2008 detailing its efforts to
ensure that the recommendations of the strategic plan were implemented.
The follow-up report stated that much of the work recommended by the Task
Force had been completed and described some efforts that were still ongoing.
The Associate Deputy Attorney General who served as the Office of the
Deputy Attorney General’s point of contact to the President’s Task Force told
us that the September 2008 report was the Task Force’s final report and the
Task Force had no plans to reconvene.

OIG Audit Approach

       The objective of this audit was to evaluate how DOJ has communicated
and implemented its strategy to combat identity theft. To accomplish our
objective we interviewed DOJ officials from the DOJ components involved in
the Department’s efforts to combat identity theft. Specifically, we
interviewed officials from the Office of the Deputy Attorney General (ODAG),
the Criminal Division, Executive Office for United States Attorneys (EOUSA),
two USAOs, the FBI, the Office of Community Oriented Policing Services
(COPS), as well as several offices and bureaus within OJP. We also
interviewed representatives from several non-DOJ agencies involved in
fighting identify theft including the Federal Trade Commission, U.S. Secret
Service, U.S. Postal Inspection Service, Social Security Administration, and
the not-for-profit National Center for Victims of Crime. In addition, we
reviewed DOJ, EOUSA, Criminal Division, FBI, and OJP policies related to
identity theft. Finally, we reviewed data provided by EOUSA and the FBI
related to identity theft investigations, prosecutions, personnel resources,
and victims.

     Appendix I contains a more detailed description of our audit objective,
scope, and methodology.

Results in Brief

       Overall we found that DOJ components responsible for combating
identity theft have undertaken various efforts to fight this widespread crime.
Several of the initiatives were in response to recommendations made by the
President’s Task Force, while others were undertaken by the components
before the Task Force was established. Although some of these efforts have
had success, in other instances the components did not address the
recommendations of the President’s Task Force. We also found that to some
degree identity theft initiatives have faded as priorities.

      In addition, we found that DOJ has not developed a coordinated plan
to combat identity theft separate from the recommendations of the


                                      ii
President’s Task Force. Representatives from every DOJ component
involved in this review told us that they have not received guidance from
DOJ’s leadership since the Task Force concluded its work. Further, DOJ did
not assign any person or office with the responsibility to coordinate DOJ’s
efforts to combat identity theft and to ensure that DOJ components further
implement the recommendations of the President’s Task Force where
appropriate. We believe the DOJ needs to ensure that its efforts to combat
identity theft are coordinated and are given sufficient priority.

      In our report, we make 14 recommendations to improve DOJ’s efforts
to combat identity theft. The remaining sections of this Executive Summary
provide a further description of our audit findings.

DOJ Leadership

       The Associate Deputy Attorney General who served as the ODAG’s
point of contact to the President’s Task Force informed us that DOJ has not
developed its own internal strategy to combat identity theft. Instead, DOJ
currently considers the President’s Task Force’s strategic plan and its
recommendations as still valid and applicable to DOJ components. However,
the Associate Deputy Attorney General also noted that DOJ has not
appointed any person or office with the responsibility for coordinating DOJ’s
identity theft efforts or ensuring that DOJ components consider and
implement the President’s Task Force recommendations when appropriate.
According to the Associate Deputy Attorney General, in the absence of a
responsible DOJ official or office, each DOJ component has been expected to
implement the President’s Task Force recommendations applicable to its
operations.

Criminal Division

      Pursuant to a request from the Attorney General, in October 2008 the
Criminal Division established the Identity Theft Enforcement Interagency
Working Group (Identity Theft Working Group).1 The working group is led
by the Criminal Division and meets monthly to discuss identity theft
enforcement issues such as trends in prosecutions. Generally, the Identity
Theft Working Group participants we interviewed said the meetings were
informative and worthwhile. However, even though the Working Group has
covered non-enforcement issues at times, some participants expressed
concern that the group’s primary focus on identity theft prosecutions is too



      1
        Appendix II contains a list of the Identity Theft Enforcement Interagency Working
Group members.


                                            iii
narrow and they believed that the group should devote greater attention to
other matters, such as identity theft victim issues.

       The Criminal Division also leads an informal training group that
conducts identity theft seminars for state and local law enforcement
agencies. Currently, the training group is organized by the Criminal
Division’s Fraud Section. In its 2008 report, the President’s Task Force
recognized the success of this training group and recommended that it
increase the number of seminars offered each year. However, the training
group organizer told us that the group’s structure, with each of the
participating agencies funding its own participation, makes it difficult to
expand the training. Further, all of the training instructors are based in the
Washington, D.C., area, making it costly to provide training in certain
locations of the United States.

      Although the Working Group has considered non-enforcement issues
during its monthly meetings, we believe that DOJ should further expand the
scope of the Identity Theft Working Group beyond its primary focus on
prosecutions to more regularly address other identity theft-related topics,
such as victims’ issues and training initiatives. In addition, we believe that a
more formal DOJ-led training group, with additional support from DOJ, could
help to ensure that many more law enforcement officers and victim
specialists receive training on how to prevent and investigate identity theft
and to assist identity theft victims.

Executive Office for United States Attorneys and United States
Attorneys’ Offices

       According to the President’s Task Force, one of the shortcomings in the
federal government’s ability to understand and respond effectively to
identity theft was the lack of comprehensive statistical data on law
enforcement’s efforts to combat it. In late 2006 EOUSA enhanced its case
management and time management systems to better capture identity theft
data. However, when we requested from EOUSA the totals for identity theft
prosecutions, convictions, and personnel time spent on identity theft
prosecutions, EOUSA officials informed us that the information provided
should not be considered complete or a reliable indicator of the total of such
work because not all USAOs have ensured compliance with the newly
implemented collection requirements. An EOUSA official told us that the
failure of some of these USAOs to adapt to the new collection requirements
may be a result of technical difficulties with the information technology
systems currently in use. The following table contains the identity theft
prosecution data provided by EOUSA.



                                       iv
                Number of Defendants Charged and Convicted 

                 Pursuant to the Federal Identity Theft and

                    Aggravated Identity Theft Statutes 

                     Fiscal Years 2007 through 20092

               Identity Theft          Aggravated Identity Theft                Totals3
           Defendants   Convictions    Defendants   Convictions        Defendants     Convictions
  FY
            Charged      Obtained       Charged      Obtained           Charged        Obtained
2007         269           103           532            272               744             365
2008         296           144           620            338               882             467
2009         239           138           578            296               769             432
Source: EOUSA


       EOUSA also provided data, displayed in the following table, regarding
the time spent by prosecutors handling identity theft cases. Again, EOUSA
officials cautioned the OIG about the accuracy of these figures because, like
the case data presented above, EOUSA officials did not believe that every
USAO was properly attributing attorney time spent working on identity theft
prosecutions.

                       Attorney Work Years Charged to 

                          Federal Identity Theft and 

                    Aggravated Identity Theft Prosecutions

                       Fiscal Years 2007 through 20094

                           Fiscal Year                        Totals
                                2007                          25.68 

                                2008                          39.71               

                                2009                          45.62 

               Source: EOUSA




       2
          The number of convictions obtained is not a subset of the number of defendants
charged during the particular fiscal year because cases charged in one year may be resolved
with a conviction in a subsequent fiscal year. Further, convictions obtained are for identity
theft and aggravated identity theft only. Instances where a defendant was charged with
identity theft or aggravated identity theft and convicted of other charges are not reflected in
the conviction totals.
       3
        The totals reflected in this table eliminate double counting of defendants who were
charged with or convicted of both identity theft and aggravated identity theft.
       4
          According to EOUSA, the term “work year” is used when defining the productive
efforts of one individual for one year. One work year for a federal employee is typically
equal to 2080 hours.


                                               v
      In addition to improving data collection, the President’s Task Force
recommended that the federal government increase its identity theft
prosecutions. It recommended specific steps that should be taken by all
USAOs, including: (1) designating an identity theft coordinator for each
USAO; (2) increasing use by USAOs of interagency working groups and task
forces devoted to identity theft; (3) reevaluating monetary thresholds applied
when assessing identity theft cases for prosecution; and (4) encouraging state
prosecution of identity theft cases.

       However, in our audit 28 of the 94 USAOs reported that they do not
lead or do not participate in an identity theft task force or working group.
Additionally, 7 of the 94 USAOs did not report to EOUSA whether they
participate in an identity theft task force or working group. Furthermore,
according to EOUSA, as of October 2009, 53 of the 94 USAOs did not report
reevaluating their monetary thresholds or encouraging state prosecution of
identity theft.

       Although we found that EOUSA has made an effort to implement the
recommendations of the President’s Task Force, some USAOs have not fully
embraced those efforts. We believe that greater leadership from DOJ and
EOUSA on the importance of identity theft initiatives could lead to larger
emphasis in this area by USAOs. We recommend that EOUSA transmit a
follow-up memorandum to all USAOs requiring each office to report on its
current identity theft efforts, including the status of its efforts related the
President’s Task Force recommendations. We believe that gathering such
information will allow DOJ and EOUSA to better understand DOJ’s overall
identity theft enforcement efforts and assist DOJ in prioritizing future identity
theft initiatives.

Federal Bureau of Investigation

       Although the specific crime of identity theft is not a top FBI priority,
the FBI frequently addresses identity theft through the Cyber Division’s
criminal intrusion program, which is currently a top FBI priority. According
to a senior FBI official, the FBI determined that it must prioritize the use of
its resources, and he believed that the FBI would have the greatest impact
on identity theft by primarily addressing the crime through its Cyber
Division.

      According to the FBI’s fiscal year (FY) 2006 Financial Crimes Report to
the Public, the FBI investigated 1,255 pending identity theft-related cases in
FY 2006. The FBI report stated that those investigations resulted in
457 indictments and 405 convictions of identity theft criminals. We
requested similar information from the FBI for FYs 2007 through 2009.


                                       vi
However, the FBI stated that it was unable to provide this information.
According to FBI officials, the FBI no longer collects data on investigations or
convictions that involve identity theft.

       In addition, according to FBI personnel we interviewed, in FY 2005 the
FBI’s Criminal Investigative Division (CID), in conjunction with the Cyber
Division, prepared a comprehensive assessment describing the identity theft
threat and periodically updated the assessment until 2007. However,
according to FBI officials, the FBI does not currently require such
comprehensive assessments on identity theft. Although comprehensive
identity theft assessments are not required, FBI officials informed us that it
has identity theft intelligence collection requirements. Since FY 2007, these
intelligence collection requirements have led to the publication of
21 intelligence assessments and bulletins, which resulted from 428
intelligence information reports. However, the FBI recognized that its
identity theft intelligence collection requirements are outdated and need to
be reviewed.

      We are concerned about the FBI’s lack of identity theft data and
mandatory comprehensive assessments on the threat of identity theft.
Without such data and comprehensive assessments the FBI cannot maintain
a current understanding of the threat presented by identity theft or properly
coordinate its approach to a crime that cuts across multiple FBI program
areas, including counterterrorism, and victimizes millions of Americans each
year.

Victim Assistance

       Federal law requires that victims of federal crimes be afforded certain
rights, and that DOJ officers and employees engaged in the detection,
investigation, and prosecution of crime make their best efforts to ensure that
crime victims are notified of and accorded their rights under federal law.
The most recent version of the Attorney General Guidelines for Victim and
Witness Assistance, issued in 2005, included a specific provision relating to
identity theft victims. However, we found that this provision has caused
confusion among DOJ investigators, prosecutors, and victim specialists
regarding their responsibilities to identify and notify victims of identity theft.
For example, the identity theft provision of the Attorney General Guidelines
does not distinguish between direct and indirect victims of identity theft,
although federal law makes this distinction.

      We recommend that DOJ, EOUSA, the Criminal Division, and the FBI
review relevant federal laws and the current Attorney General Guidelines for
Victim and Witness Assistance and issue clear guidance to DOJ components


                                       vii
to ensure that they follow a uniform policy and take the legally required
steps to identify and notify victims of identity theft.

Office of Justice Programs

       OJP’s Bureau of Justice Statistics (BJS) annually conducts the National
Crime Victimization Survey. In July 2004, BJS added identity theft-related
questions to this survey. However, we found that the surveys are not
published in a timely manner. The 2004 and 2005 results (the first 2 survey
years that included identity theft questions) were not published until April
2006 and November 2007, respectively. BJS currently estimates that due to
resource limitations the 2006 survey results on identity theft will not be
published until the summer of 2010. In addition, in cooperation with the
FTC, BJS conducted a more comprehensive identity theft survey covering the
first 6 months of 2008. These results will not be published until the fall of
2010.

       Timely and accurate statistics inform DOJ on the prevalence and scope
of the identity theft problem. Such statistics can also help DOJ and other
agencies’ law enforcement components recognize trends and areas for
enhanced enforcement operations. BJS’s reporting takes on greater
importance in view of the lack of data being collected by the FBI, as
discussed above, and the Federal Trade Commission, which according to
officials we interviewed has no plans to conduct future identity theft surveys.

Conclusions and Recommendations

       DOJ has not developed its own comprehensive strategy to combat
identity theft. Instead, DOJ relies on the President’s Task Force strategic
plan as being valid and applicable to all DOJ components. Yet, DOJ has not
designated any person or office with the responsibility of coordinating DOJ’s
identity theft efforts, including ensuring that the recommendations of the
President’s Task Force are appropriately implemented. This lack of a
coordinator responsible for the DOJ’s identity theft efforts has led to an
uncoordinated, and sometimes nonexistent, approach by DOJ components to
address identity theft. Additionally, DOJ does not currently have a
mechanism to assess whether the recommendations of the Task Force
remain relevant, or whether changes in the DOJ’s approach are necessary.

      We believe that additional DOJ leadership is needed to ensure that
DOJ’s overall efforts to combat identity theft are coordinated and prioritized.
Therefore, we recommend that DOJ coordinate its identity theft efforts,
based on a review the President’s Task Force’s strategic plan and
consultation with the relevant components involved in identity theft issues.


                                      viii
DOJ should also reaffirm to all DOJ components that the President’s Task
Force’s strategic plan is applicable to them and that the components should
ensure the further implementation of the recommendations where
appropriate. We also recommend that DOJ and all components involved in
identity theft issues designate an official or office with responsibility for
monitoring their agency’s identity theft efforts. DOJ should require all such
designees to meet periodically with DOJ’s designee to consider adjustments
to the DOJ’s approach to identity theft when appropriate.

       Our audit work and findings resulted in 14 recommendations to the
Department of Justice and its components to improve their efforts to combat
identity theft.




                                      ix
                            THE DEPARTMENT OF JUSTICE’S
                         EFFORTS TO COMBAT IDENTITY THEFT

                                         TABLE OF CONTENTS
Introduction ................................................................................................1  
OIG Audit Approach .....................................................................................2 
DOJ Leadership............................................................................................3 
Criminal Division..........................................................................................5 
              Identity Theft Enforcement Interagency Working Group ....................... 5 
              Training and Outreach Efforts........................................................... 6 
              Recommendations .......................................................................... 8 
Executive Office for United States Attorneys and
  United States Attorneys’ Offices ..............................................................9 
              Identity Theft Data Collection ........................................................... 9 
              Efforts to Increase Identity Theft Prosecutions .................................. 11 
              USAO Site Visits ........................................................................... 12 
              Identity Theft Training for Federal Prosecutors.................................. 15 
              Identity Theft Victim Assistance...................................................... 15 
              Recommendations ........................................................................ 17 
Federal Bureau of Investigation ................................................................ 17 
              Identity Theft Program Control .......................................................         17 
              FBI Identity Theft Data..................................................................      19 
              FBI Identity Theft Victim Assistance ................................................          20 
              Other Identity Theft-Related Initiatives............................................           24 
              Recommendations ........................................................................       25 
Office of Justice Programs ......................................................................... 26 
              Identity Theft Statistics .................................................................    26 
              OJP’s Identity Theft Working Group.................................................            28 
              Identity Theft-Related Funding Efforts .............................................           29 
              Recommendations ........................................................................       29 
Community Oriented Policing Services ...................................................... 30 
Conclusion ................................................................................................. 31  
APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY .......................... 32 
APPENDIX II - IDENTITY THEFT ENFORCEMENT INTERAGENCY
  WORKING GROUP PARTICIPATING AGENCIES ...................................... 34 
APPENDIX III - DEPARTMENT OF JUSTICE AND
  COMPONENT RESPONSES ...................................................................... 37 
APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT.................. 49 
                    THE DEPARTMENT OF JUSTICE’S
                 EFFORTS TO COMBAT IDENTITY THEFT

Introduction

      In 1998, the U.S. Congress made identity theft a federal crime.5
According to Department of Justice (DOJ) personnel, identity theft is most
often investigated when it relates to other crimes, such as cyber intrusions,
health care fraud, mortgage fraud, and credit card fraud. Identity theft can
also be a significant element of violent crimes, such as domestic abuse and
even terrorism, and a significant number of identity theft-related crimes
originate overseas.

       According to the most recent Federal Trade Commission (FTC)
statistics available, approximately 8.3 million Americans were victims of
some form of identity theft in 2005.6 The FTC reported that these identity
thefts resulted in losses estimated at $15.6 billion.7 In June 2009, a Deputy
Assistant Attorney General of the DOJ Criminal Division testified before
Congress that in 2008 an estimated 10 million Americans were victims of
identity theft and it was the fastest growing crime in the United States in
2008.8

     In response to the growing prevalence of identity theft, on May 10,
2006, President George W. Bush signed an executive order creating the


       5
          The Identity Theft and Assumption Deterrence Act of 1998, Public Law 105-318
(October 30, 1998), amended 18 U.S.C. § 1028 to include sub-section (a)(7), which defined
the crime of identity theft as “knowingly transfer[ring], possess[ing], or us[ing], without
lawful authority, a means of identification of another person with the intent to commit, or to
aid or abet, or in connection with, any unlawful activity that constitutes a violation of
Federal law, or that constitutes a felony under any applicable State or local law[.]” In 2004,
Congress enacted the aggravated identity theft statute, codified in 18 U.S.C. § 1028A
(2004), which enhanced the penalty for using the identification of another in connection
with the commission of enumerated felony offenses.
       6
         The FTC takes complaints from identity theft victims and shares these complaints
with federal, state, or local law enforcement authorities.
       7
           Federal Trade Commission, 2006 Identity Theft Survey Report (November 2007).
       8
         Jason M. Weinstein, Deputy Assistant Attorney General, Criminal Division, testified
before the United States House of Representatives Committee on Oversight and
Government Reform Subcommittee on Information Policy, Census, and National Archives,
concerning “Identity Theft: A Victims Bill of Rights” (June 17, 2009).



                                                 1
President’s Identity Theft Task Force (President’s Task Force).9 The
President’s Task Force was chaired by the Attorney General, with the
Chairman of the FTC serving as Co-Chair. The stated purpose of the Task
Force was to “use federal resources effectively to deter, prevent, detect,
investigate, proceed against, and prosecute unlawful use by persons of the
identifying information of other persons.”10 Members of the President’s Task
Force included, among others, the Secretary of Homeland Security, the
Postmaster General, and the Commissioner of the Social Security
Administration.11 The Task Force was made up of four subgroups:
(1) Subgroup on Criminal Law Enforcement, (2) Subgroup on Education and
Outreach, (3) Subgroup on Data Security, and (4) Subgroup on Legislative
and Administrative Action.

       Less than 1 year after its formation, the President’s Task Force issued
a strategic plan that made recommendations on combating identity theft to
various federal departments and agencies, including DOJ and some of its
components.12 In September 2008, the Task Force issued a follow-up report
detailing its efforts to ensure that its recommendations were implemented.13
According to this report, much of the work recommended by the Task Force
was completed but some efforts were still ongoing. The Associate Deputy
Attorney General who served as the Office of the Deputy Attorney General’s
point of contact to the Task Force told the OIG in September 2009 that there
were no plans for the President’s Task Force to reconvene in the future.

OIG Audit Approach

    The objective for this audit was to evaluate how DOJ has
communicated and implemented its strategy to combat identity theft. To

       9
         Executive Order 13402, Strengthening Federal Efforts to Protect Against Identity
Theft (E.O. 13402).
       10
        Alberto Gonzalez, Attorney General, memorandum for all Identity Theft Task
Force members, Implementation of Identity Theft Task Force, May 22, 2006.
       11
           The Secretaries of the Departments of Treasury, Commerce, Health and Human
Services, Veterans Affairs, and the heads of the Office of Management and Budget, Federal
Reserve System, Office of Personnel Management, Federal Deposit Insurance Corporation,
Securities and Exchange Commission, National Credit Union Administration, Office of the
Comptroller of the Currency, and the Office of Thrift Supervision also served as members of
the President’s Task Force.
       12
           The President’s Identity Theft Task Force, Combating Identity Theft: A Strategic
Plan (April 2007).
       13
            The President’s Identity Theft Task Force, Task Force Report (September 2008).



                                                 2
accomplish our objective we interviewed representatives from several DOJ
components responsible for combating identity theft, including the Office of
the Deputy Attorney General (ODAG), Criminal Division, Executive Office for
United States Attorneys (EOUSA), two United States Attorneys’ Offices
(USAO), the Federal Bureau of Investigation (FBI), the Office of Community
Oriented Policing Services (COPS), and several offices and bureaus within
the Office of Justice Programs (OJP).14 To gain a broader perspective on
identity theft issues and DOJ’s efforts in combating it, we also interviewed
representatives from non-DOJ agencies with responsibilities for combating
identity theft, including officials from the FTC, U.S. Secret Service,
U.S. Postal Inspection Service, Social Security Administration, and the not-
for-profit National Center for Victims of Crime.15 In addition, we reviewed
DOJ, EOUSA, Criminal Division, FBI, and OJP policies related to identity
theft. We also reviewed statistics provided by EOUSA and the FBI related to
identity theft investigations and prosecutions, personnel resources dedicated
to identity theft, and identity theft victims.

       In addressing our audit objective, this report first provides an overview
of DOJ’s overall approach to identity theft and recommendations for
improving the overall coordination of the DOJ’s efforts to combat this
pervasive crime. Following that, we provide analyses of the individual
activities of the various DOJ components involved in combating identity theft
and make recommendations for those components to strengthen their
efforts.

DOJ Leadership

      According to the Associate Deputy Attorney General who served as the
ODAG’s point of contact for the President’s Identity Theft Task Force, DOJ
has not developed its own internal identity theft strategy, separate from the
President’s Task Force’s strategic plan. The Associate Deputy Attorney
General stated that DOJ considers the Task Force’s plan to be valid and
applicable to DOJ and its components.

      However, the Associate Deputy Attorney General also noted that there
is no person or entity within DOJ designated with the responsibility for

       14
          In addition to meeting with officials from EOUSA, we also met with
representatives from the United States Attorneys’ Offices for the Northern District of Illinois
and the Eastern District of Pennsylvania.
       15
           According to its website, the mission of the National Center for Victims of Crime is
to forge a national commitment to help victims of crime rebuild their lives. It is a 501(c)(3)
not-for-profit organization supported by members, individual donors, corporations,
foundations, and government grants.


                                                  3
coordinating DOJ’s identity theft efforts, including ensuring that the
recommendations of the President’s Task Force are considered and
implemented. Instead, each DOJ component is expected to consider and
implement the recommendations of the President’s Task Force as it deems
appropriate.

       We believe that additional DOJ leadership is needed to ensure that
DOJ’s overall efforts to combat identity theft are coordinated and prioritized.
During our review, representatives from every DOJ component we contacted
told us they have not received direction from DOJ to guide their efforts to
combat identity theft. Further, while some components have taken steps to
implement some of the recommendations of the President’s Task Force on
their own, not all relevant components were even aware that DOJ considers
the President’s Task Force strategic plan and recommendations to be its plan
to combat identity theft. For example, as discussed in more detail in this
report, many USAOs did not reevaluate the monetary thresholds applied in
identity theft cases, the FBI is not collecting identity theft-related case
statistics, and BJS did not work proactively to expand its data collection on
identity theft to individual victims.

       Therefore, the DOJ’s approach to addressing identity theft has not
been coordinated, resulting in identity theft not being treated as a DOJ
priority. We believe that each DOJ component should designate an official or
office responsible for monitoring their agency’s identity theft efforts. Once
these officials or offices are designated, DOJ should ensure that all
component designees meet periodically with the DOJ designee to assess
identity theft trends and make necessary adjustments to DOJ’s approach to
combating identity theft.

We recommend that the Department of Justice:

      1.	   Coordinate its identity theft efforts based on a review of the
            President’s Task Force’s strategic plan and consultation with the
            relevant components involved in identity theft issues. DOJ
            should also monitor compliance with the President’s Task Force
            recommendations and ensure further implementation where
            appropriate.

      2.	   Designate a DOJ official or office as the individual or entity
            responsible for coordinating DOJ’s identity theft efforts. DOJ
            should also direct each relevant component to designate an
            individual or office responsible for monitoring their agency’s
            efforts and communicating their efforts to DOJ as requested.



                                          4
      3.	    Conduct periodic meetings with the components’ newly
             designated identity theft coordinators to ensure that the DOJ’s
             approach to identity theft remains viable and that adjustments
             are made to DOJ’s approach when necessary.

Criminal Division

       The Criminal Division is one of the DOJ components responsible for
investigating and prosecuting federal criminal offenses, including identity
theft.

Identity Theft Enforcement Interagency Working Group

       Shortly after identity theft became a federal crime in 1998, the
Attorney General’s Council on White Collar Crime established an Identity
Theft Subcommittee. According to Criminal Division officials, this
subcommittee was led by the Fraud Section of the Criminal Division and met
regularly until the creation of the President’s Task Force in 2006. At that
time, the Identity Theft Subcommittee was transformed into the Subgroup
on Criminal Law Enforcement of the President’s Task Force, chaired by an
official from the Criminal Division. After the President’s Task Force’s
September 2008 report, the Criminal Law Enforcement Subgroup was
transformed once again at the request of the Attorney General into the
Identity Theft Enforcement Interagency Working Group (Identity Theft
Working Group).

      Currently, the Identity Theft Working Group is chaired by the Deputy
Chief of the Criminal Division’s Fraud Section and meets once per month.
According to the Chair, the Identity Theft Working Group is designed to be a
forum for agencies to discuss identity theft enforcement issues, such as
notable identity theft prosecutions, or trends that may be developing in the
commission of identity theft crimes. The Working Group meetings are
regularly attended by representatives from several DOJ components,
including EOUSA, multiple USAOs, the FBI, and OJP’s Office for Victims of
Crime (OVC). ODAG officials have been invited to participate on the
Working Group, but have not yet done so. Representatives from the other
federal agencies also regularly attend meetings, including: the FTC, the U.S.
Secret Service, the U.S. Postal Inspection Service, the Social Security
Administration, and the Internal Revenue Service.16



      16
         During this audit, we attended two meetings of the Identity Theft Working Group.
Appendix II contains a list of the working group’s regular participants.


                                               5
       DOJ and non-DOJ participants told us that they consider the Identity
Theft Working Group a worthwhile initiative. Each of the participants we
spoke with said the group’s current Chair deserves credit for organizing the
Identity Theft Working Group and for his efforts in trying to keep the issue of
identity theft relevant to law enforcement efforts throughout the federal
government.

       However, even though the Working Group has covered non-
enforcement issues during some of its monthly meetings, personnel from
DOJ components involved in victim issues told us that they believed that the
focus of the Identity Theft Working Group is too narrow. These individuals
believed that they could be more helpful in regularly bringing identity theft
victim issues to the attention of participating investigators and prosecutors.
A staff member from the FBI’s Office for Victim Assistance said that this
office had not been asked to participate on the Identity Theft Working
Group. Representatives from COPS stated that they no longer participated
in the Identity Theft Working Group because it primarily focuses on identity
theft prosecutions, which they said was not relevant to the mission of COPS.

       The Identity Theft Working Group has helped promote identity theft
enforcement as a priority for investigators and prosecutors, especially since
the President’s Task Force concluded its work in September 2008. However,
we believe that important identity theft issues highlighted by the President’s
Task Force may not be receiving adequate attention. While we recognize
that the Subgroup on Criminal Law Enforcement of the President’s Task
Force, the Identity Theft Working Group’s predecessor, was purposely
designed to focus on enforcement issues, we believe that the Identity Theft
Working Group should seek to more frequently address identity theft topics
beyond its primary focus on investigation and prosecution issues. As an
established entity recognized among numerous federal agencies, the
Working Group provides an established forum to regularly address broader
identity theft issues related to enforcement, such as education and outreach,
data protection, and victim issues. No other forum for some of these issues
has existed since the subgroups of the President’s Task Force concluded
their work.

Training and Outreach Efforts

      One of the recommendations made by the President’s Task Force was
for the federal government to provide specialized training “to first
responders and others providing direct assistance to identity theft victims.”
According to the Chair of the Identity Theft Working Group, the working
group does not directly sponsor identity theft training of state and local law
enforcement. However, prior to the establishment of the Identity Theft


                                          6
Working Group, several participants had already formed an informal training
group. According to the Chair of the Identity Theft Working Group, he is the
informal leader of this group, which consists of instructors from the Criminal
Division, FBI, FTC, U.S. Postal Inspection Service, and U.S. Secret Service.

       Since its inception in 2002, this training group has provided 1-day
identity crime seminars, which include victim assistance topics, to state and
local law enforcement officers. Currently, the group attempts to provide the
training an average of three to four times per year at locations around the
country. However, according to the Working Group’s Chair, the seminars
are difficult to coordinate because each of the member agencies has to pay
its own costs related to the training. In addition, all of the instructors are
based in the Washington, D.C., area, requiring them to travel for almost all
seminars.

       In its final report, the President’s Task Force recognized the success
and value of the informal training group and recommended that the group’s
efforts be increased. Members of the training group also told us that they
believed their efforts were valuable, and they generally credited the Chair of
the Identity Theft Working Group for the success of these efforts. However,
one member noted that some agencies have recently assumed a
disproportionate percentage of the cost for the training. According to this
member, he was concerned that such a trend could become unsustainable
and the group’s future efforts may be put at risk.

      Moreover, we are concerned about the informal structure of the group.
Although the group has been successful in continuing its efforts over the last
several years as an informal entity, we believe a more formalized structure
and DOJ leadership attention could result in more training seminars for state
and local officials and greater participation by other federal agencies.

       As noted by the Chair of the Identity Theft Working Group, there are
thousands of state, local, and tribal law enforcement agencies throughout
the United States and many have little or no training budget. As the
President’s Task Force found, many identity theft victims’ first step is to
contact local law enforcement. Therefore, it is essential that state, local,
and tribal law enforcement agencies are appropriately trained in dealing with
identity theft crimes.

      We believe that formalizing the training group will elevate its status
and encourage greater participation among DOJ and non-DOJ agencies.
Increased participation should also lead to additional opportunities to expand
the reach of the training to state, local, and tribal law enforcement.



                                         7
       In addition to the efforts of the training group to train U.S. law
enforcement officials, the Criminal Division has been involved in other
training and outreach efforts for the international law enforcement
community to address U.S. identity theft crimes originating overseas. For
example, in 2005 the United Nations created an intergovernmental fraud and
identity theft working group. The Criminal Division’s Fraud Section led the
U.S. delegation to that working group. In addition, the Fraud Section
participated in a G8-led law enforcement subgroup on identity theft that
encouraged member nations to focus more on identity theft crimes.17 The
Deputy Chief of the Fraud Section also advised the United Nations Office on
Drugs and Crime regarding identity theft-related issues. The Computer
Crime and Intellectual Property Section of the Criminal Division reported that
during fiscal years 2008 and 2009 it participated in 12 international
cybercrime training events at which it discussed the issue of identity theft.

Recommendations

       The Criminal Division has assumed responsibility for examining many
of the identity theft enforcement issues that were previously handled by the
President’s Task Force. However, the Criminal Division can only encourage
other agencies to participate in its efforts to combat identity theft. We
recommend that the DOJ broaden the focus of the Identity Theft Working
Group so that it can address topics previously covered by subgroups of
President’s Task Force. In addition, a more formalized training group
focused on educating state, local, and tribal law enforcement, the likely first
responders in many identity theft cases, could help to ensure that many
more state and local law enforcement officers and victim specialists receive
training on investigating identity theft and assisting its victims. The efforts
of the current training group, while successful, have limited reach.

We recommend that the Department of Justice and Criminal Division:

      4.	    Expand the scope of the Identity Theft Enforcement Interagency
             Working Group to more regularly include identity theft-related
             topics previously covered by the other subgroups of the
             President’s Identity Theft Task Force, such as education and
             outreach, data protection, and identity theft victims’ issues.




      17
           The G-8 is a multilateral group consisting of the world's major industrial
democracies. The G-8 addresses a wide range of international economic, political, and
security issues.


                                                8
      5.	   Formalize the identity theft training group currently being led by
            the Criminal Division and consider ways to expand its reach to
            state, local, and tribal law enforcement agencies.

Executive Office for United States Attorneys and United States
Attorneys’ Offices

       The 94 United States Attorneys’ Offices serve as the nation’s principal
litigators with responsibility for the prosecution of federal criminal cases.
The primary function of EOUSA is to provide general executive assistance to
and oversight of the 94 USAOs.

Identity Theft Data Collection

       According to the President’s Task Force, one of the shortcomings in the
federal government’s ability to understand and respond effectively to
identity theft has been the lack of comprehensive statistical data about law
enforcement efforts to combat it. One of the Task Force’s recommendations
was that federal agencies enhance their gathering of statistical data
measuring the criminal justice system’s response to identity theft. As part
of this review, we asked EOUSA to provide us with the number of defendants
charged under the federal identity theft statutes and the number of identity
theft convictions obtained pursuant to these statutes during FYs 2007
through 2009.

       EOUSA officials told the OIG that its data could not be considered
complete or a reliable indicator of its identity theft efforts and that the
statistics should be viewed as representing the lowest possible numbers of
identity theft cases. EOUSA officials also told us that until December 2006,
federal prosecutors tracked cases involving 18 U.S.C. § 1028, without
breaking down the number of cases involving the subsection of that statute
that dealt with identity theft (18 U.S.C. § 1028(a)(7)). Beginning in
December 2006, changes were made to the EOUSA case management
system that allowed federal prosecutors to track the specific subsection
containing the crime of identity theft. In April 2007, the Acting Director of
EOUSA sent a memorandum to all USAOs reminding them that they should
take special care to ensure that cases charging identity theft offenses were
entered and reported specifically as identity theft matters in the case
management system. However, EOUSA officials stated that many USAOs
were slow to adapt to this change and that, as a result, the more specific
reporting category for identity theft likely understates the number of identity
theft cases for FYs 2007 to 2009 because some such cases were likely
reported under the broader offense code. One EOUSA official told us that



                                          9
the failure of some USAOs to adapt to the new collection requirements may
be a result of technical difficulties with the information technology systems
currently in use.18

       The following table contains the data provided by EOUSA.

                 Number of Defendants Charged and Convicted
                  Pursuant to the Federal Identity Theft and
                     Aggravated Identity Theft Statutes
                      Fiscal Years 2007 through 200919
                Identity Theft         Aggravated Identity Theft                Totals20
            Defendants   Convictions   Defendants        Convictions   Defendants    Convictions
  FY
             Charged      Obtained      Charged           Obtained      Charged       Obtained
2007          269           103          532                272           744              365
2008          296           144          620                338           882              467
2009          239           138          578                296           769              432
Source: EOUSA


      We obtained from EOUSA data regarding the time spent by
prosecutors handling identity theft cases, which is displayed in the following
table. However, EOUSA officials cautioned the OIG about the accuracy of
these figures because, like the case data presented above, EOUSA officials
did not believe that every USAO was properly attributing attorney time spent
working on identity theft prosecutions.




       18
          EOUSA stated that officials were confident that the number of defendants charged
and convictions obtained pursuant to the aggravated identity theft statute were adequately
captured because that statute only covers one specific crime.
       19
           The number of convictions obtained is not a subset of the number of defendants
charged during the particular fiscal year because cases charged in one year may be resolved
with a conviction in a subsequent fiscal year. Further, convictions obtained are for identity
theft and aggravated identity theft only. Instances where a defendant was charged with
identity theft or aggravated identity theft and convicted of other charges are not reflected in
the conviction totals.
       20
         The totals reflected in this table eliminate double counting of defendants who
were charged with or convicted of both identity theft and aggravated identity theft.


                                                    10
                      Attorney Work Years Charged to
                         Federal Identity Theft and
                   Aggravated Identity Theft Prosecutions
                     Fiscal Years 2007 through 200921
                          Fiscal Year                      Totals
                             2007                          25.68
                             2008                          39.71
                             2009                          45.62
             Source: EOUSA


       Because EOUSA officials still question whether USAO data for identity
theft cases and activities are being completely captured, we believe that
EOUSA should reemphasize to USAOs the importance of this data and the
need to ensure full and accurate reporting of their cases and allocation of
time among the categories of cases.

Efforts to Increase Identity Theft Prosecutions

       One of the key recommendations of the President’s Task Force was
that the federal government increase identity theft prosecutions. In making
this recommendation, the Task Force suggested that certain steps be taken
by participating agencies. Four of these steps were directed specifically to
the 94 USAOs: (1) designating an identity theft coordinator for each USAO,
(2) increasing use by USAOs of interagency working groups and task forces
devoted to identity theft, (3) reevaluating monetary thresholds applied to
identity theft prosecutions, and (4) encouraging state prosecution of identity
theft. In his April 2007 memorandum to all USAOs, the Acting Director of
EOUSA asked all USAOs to consider these specific steps and to be prepared
to report to EOUSA upon completion of the steps.

       According to EOUSA, by July 2006, which was prior to the issuance of
the President’s Task Force strategic plan, every USAO already had
established an identity theft point of contact. In addition, EOUSA reported
to us that as of November 2009: (1) 36 of 94 USAOs managed or
co-managed an identity theft task force or working group, (2) 5 USAOs were
in the process of forming an identity theft working group or task force, and
(3) 18 USAOs participated in task forces or working groups focused on
identity theft or related crimes that are led by other agencies. Of the
remaining 35 USAOs, 28 reported that they do not lead or do not participate

       21
           According to EOUSA, the term “work year” is used when defining the productive
efforts of one individual for one year. One work year for a federal employee is typically
equal to 2080 hours.


                                               11
in an identity theft task force or working group, and 7 USAOs did not report
to EOUSA whether they participated.

      With respect to the third and fourth recommendations of the
President’s Task Force, EOUSA provided documentation to us in
October 2009 showing that only 41 of the 94 USAOs reported that they had
reevaluated their monetary thresholds for identity theft prosecutions. The
same offices informed EOUSA that they had, at a minimum, considered the
recommendation to encourage state prosecution of identity theft. The
remaining 53 USAOs did not report to EOUSA on their progress on these
recommendations.

USAO Site Visits

      To better determine how USAOs were responding to the President’s
Task Force recommendation to increase identity theft prosecutions, we met
with the identity theft points of contact in two USAOs located in major
metropolitan areas – Chicago and Philadelphia. We found that these districts
took very different approaches toward identity theft crimes and the
President’s Task Force’s recommendations.

      USAO for the Northern District of Illinois

       According to the Criminal Chief of the USAO for the Northern District of
Illinois, the district prosecutes very few cases purely pertaining to identity
theft. Instead, identity theft crimes in the district are generally connected to
financial fraud cases, for which the office has an established monetary
threshold for prosecution. The Criminal Chief believed that the district’s
threshold was appropriate based upon available resources and district
priorities.

       The identity theft point of contact for the USAO for the Northern
District of Illinois, who also serves as the Associate Criminal Chief, told us
that serving as the identity theft point of contact for this USAO is generally
considered an administrative task. The Associate Criminal Chief was
selected as the identity theft point of contact because she was already
handling much of the criminal case intake, not because of any particular
expertise in identity theft matters.

      Additionally, this USAO was 1 of the 28 districts noted above that does
not lead or participate in any identity theft task forces or working groups.
Both the Criminal Chief and the identity theft point of contact stated that
task forces or working groups were beneficial in districts in which law
enforcement agencies do not work well together or generally lack


                                          12
communication channels. These officials said that an identity theft task
force or working group was unnecessary in their district because federal and
local law enforcement agencies have historically worked very well together.

      USAO for the Eastern District of Pennsylvania

      The identity theft point of contact for the Eastern District of
Pennsylvania was this USAO’s Chief of the Financial Institution Fraud and
Identity Theft Section. This point of contact told us that the office had
eliminated the monetary threshold the USAO previously applied for identity
theft prosecutions. In his opinion, the elimination of the monetary threshold
has led to several identity theft prosecutions. For example, the district
reported prosecuting cases where stolen identities were used to create
fraudulent passports. Because such cases typically do not involve significant
monetary losses, they often would not be prosecuted when strict monetary
thresholds are applied.

       In addition to eliminating monetary thresholds, the point of contact for
the Eastern District of Pennsylvania said the office had established an
identity theft working group that recently transitioned into a task force.
According to the point of contact, the task force meets at least once a month
and actively trains local law enforcement on identity theft issues.
Participants on the task force include personnel from the FBI, U.S. Secret
Service, U.S. Postal Inspection Service, Social Security Administration,
Department of State, Defense Criminal Investigative Service, Federal
Protective Services, Amtrak Police, and multiple state and local law
enforcement agencies. According to the point of contact, task force
participants have sent many identity theft case referrals to his office.

       As the following table illustrates, between FYs 2007 and 2009, the
Eastern District of Pennsylvania charged many more defendants with identity
theft crimes and obtained more than 20 times the number of convictions as
the Northern District of Illinois.




                                         13
 Number of Defendants Charged and Convicted Pursuant to Federal 

    Identity Theft and Aggravated Identity Theft Statutes by the 

 Northern District of Illinois and the Eastern District of Pennsylvania 

                  Fiscal Years 2007 through 200922

  Fiscal Year       Northern District of Illinois       Eastern District of Pennsylvania
                     Charged          Convicted            Charged             Convicted
     2007              10                1                   34                  19
     2008              13                0                   15                  40
     2009              23                3                   33                  27
    TOTAL              46                4                   82                  86
Source: EOUSA

       We believe this data reflects the different approaches and priorities of
these two districts in addressing identity theft. The elimination of monetary
thresholds by the Eastern District of Pennsylvania, coupled with the multiple
referrals from participating agencies on its identity theft task force, likely
explain the higher number of defendants charged and convictions obtained
in that district. Conversely, the lower number of defendants charged and
convictions obtained by the Northern District of Illinois may correlate with
the application of monetary thresholds and its lack of participation on
identity theft task forces or working groups.

       Finally, a significant achievement of the USAO for the Eastern District
of Pennsylvania’s identity theft task force was the development of the
National Identity Crime Law Enforcement network (NICLE), which is funded
primarily by the U.S. Postal Inspection Service.23 NICLE allows for real-time
connection of investigators and is principally used to help coordinate identity
theft investigations. As of August 2009, NICLE contained 6.5 million records
and was used by approximately 190 police departments, 26 state agencies
in 5 states, and 12 federal agencies. Therefore, participation in NICLE is
limited.


       22
           The number of convictions obtained is not a subset of the number of defendants
charged during the particular fiscal year because cases charged in one year may be resolved
with a conviction in a subsequent fiscal year. Further, convictions obtained are for identity
theft and aggravated identity theft only. Instances where a defendant was charged with
identity theft or aggravated identity theft and convicted of other charges are not reflected in
the conviction totals.
       23
           NICLE grants participating agencies access to U.S. Postal Inspection Service
identity theft case data, victim reports, and investigative data from various law enforcement
agencies. The database is currently housed on the Regional Information Sharing Systems
Network (RISSNET), and can only be accessed through the Middle Atlantic-Great Lakes
Organized Crime Law Enforcement Network (MAGLOCLEN).



                                                 14 

       We discussed NICLE with the DOJ official who served as the ODAG’s
point of contact to the President’s Task Force. He stated to us that DOJ is
assessing NICLE as an option to address the Task Force’s recommendation
that law enforcement agencies consider establishing a National Identity Theft
Law Enforcement Center. The official expressed some reservations about
whether DOJ was the appropriate location for NICLE to be housed. We
recommend that DOJ, with the assistance of EOUSA, assess NICLE and its
capabilities as part of DOJ’s approach to combating identity theft.

Identity Theft Training for Federal Prosecutors

      One of the specific recommendations made to DOJ by the President’s
Task Force was to establish a standard training course focused on identity
theft. According to EOUSA, an identity theft seminar had already been
established at DOJ’s training center for prosecutors and was first offered to
Assistant U.S. Attorneys in October 2005. EOUSA informed us that the
course was offered once in 2007, twice in 2008, and is scheduled to be
offered in August 2010.

Identity Theft Victim Assistance

      Federal law requires that victims of federal crimes be afforded certain
rights, and that DOJ officers and employees engaged in the detection,
investigation, or prosecution of crime to make their best efforts to see that
crime victims are notified of and accorded their rights under federal law.24
The Attorney General Guidelines for Victim and Witness Assistance (Attorney
General Guidelines) contain a specific section, Article X, devoted to assisting
victims of identity theft.25

      EOUSA’s Victim Witness Staff is responsible for providing primary
support to USAOs’ victim and witness staff. As of FY 2008, EOUSA reported
that there were 215 Victim Witness Coordinators (VWC) throughout the
nation. These VWCs typically become responsible for working with crime
victims after charges are filed in a criminal case. According to the Assistant
Director for EOUSA’s Victim Witness Staff, in typical identity theft cases,
VWCs are responsible for notifying identified victims of their rights under
federal law and referring them to identity theft-related resources.




      24
           18 U.S.C. § 3771(c)(1)(2009).
      25
           Attorney General Guidelines for Victim and Witness Assistance, Article X.


                                                 15
       VWCs are also responsible for entering victims of identity theft into the
automated Victim Notification System (VNS) when required.26 Article X of
the Attorney General Guidelines, which specifically addresses identity theft
victims, states that, “all individuals who have had financial or personal
information compromised in an identity theft crime should be identified, and
their names and contact information should be entered into VNS.” However,
according to the Assistant Director for EOUSA’s Victim Witness Staff, VNS is
not always used to notify identified victims of their rights, especially in cases
where there are large numbers of identity theft victims, such as in large
computer hacking or financial fraud cases. EOUSA’s Assistant Director told
us that under those circumstances, Article II of the Attorney General
Guidelines allows for methods other than VNS to be used in criminal cases
with large numbers of victims. The Assistant Director also noted that VNS
simply cannot handle the large numbers of entries that Article X suggests
could be required. For example, she said that in a large-scale computer
intrusion case there can potentially be a million victims of identity theft.
Neither EOUSA nor USAOs have the resources needed to make that many
entries into VNS.

      The following table shows the number of identity theft victims entered
into VNS during FYs 2007 through 2009.

                    Identity Theft Victims Entered into VNS
                        Fiscal Years 2007 through 200927
                     Fiscal Year        Identity Theft Victims
                        2007                    10,861
                        2008                    13,523
                        2009                    21,729
                Source: EOUSA

       EOUSA cautioned that these figures may not be accurate because the
capability for USAOs to specifically track identity theft cases was not
implemented until December 2006. In addition, these figures do not include
cases in which identity theft was charged but the identity theft program code
was not used. According to EOUSA officials, this may occur when identity
theft is not the primary charge in a particular case.


       26
           VNS, a cooperative effort among the FBI, U.S. Postal Inspection Service, USAOs,
and the Federal Bureau of Prisons, is an automated system that is designed to generate
notifications to victims after critical events in the investigation and prosecution of cases with
which they are associated.
       27
         According to EOUSA, FY 2007 data is only partial because the codes used by
USAO to specifically track identity theft cases were not instituted until December 18, 2006.


                                                  16
Recommendations

       Although EOUSA has made an effort to implement many of the
recommendations of the President’s Task Force, it appears that some USAOs
have not fully embraced those efforts. We recognize that resources and
priorities can vary widely among districts. Nonetheless, we believe that the
differing priority given and approaches taken to identity theft by the USAOs
in the Northern District of Illinois and the Eastern District of Pennsylvania
illustrate that the implementation of the President’s Task Force
recommendations can have an effect on identity theft enforcement efforts.
Furthermore, because DOJ considers the President’s Task Force plan
applicable to DOJ components, DOJ should ensure that all USAOs consider
implementing the President’s Task Force’s recommendations and provide
reports regarding their identity theft strategy and efforts.

We recommend the Department of Justice and EOUSA:

      6.	   Transmit a memorandum to all USAOs requiring each office to
            report on its current identity theft efforts, including the status of
            its efforts related to the implementation of the President’s Task
            Force recommendations. USAOs should also report on the steps
            taken by the district to ensure that its case management data
            and attorney time allocation data on identity theft is fully and
            accurately reported.

      7.	   Perform a comprehensive assessment of NICLE to determine
            whether it should be housed in DOJ and expanded nationally.

Federal Bureau of Investigation

       Many of the FBI personnel we interviewed consider identity theft to be
an ancillary crime that typically occurs as part of larger crimes, including
computer intrusions, mortgage fraud, health care fraud, and terrorism.
Because identity theft can be an element of these different types of crimes,
Special Agents investigating a variety of cases can encounter identity theft in
their investigations.

Identity Theft Program Control

       Historically, responsibility for the FBI’s identity theft program resided
in its Criminal Investigative Division (CID). However, in November 2007,
program control of identity theft was transferred from the CID to the Cyber
Division. According to the internal FBI communication that formally



                                          17
transferred the identity theft program to the Cyber Division, this transfer of
the program was intended to focus the FBI’s resources on the highest
priority identity theft related investigations. Since this transfer, two notable
changes have occurred in the FBI’s approach to identity theft. First, as
discussed in greater detail below, the FBI no longer tracks data on the
number of identity theft investigations opened or convictions obtained. In
addition, as of 2007, the FBI stopped updating a comprehensive assessment
of the identity theft threat. That assessment had been prepared at the
request of the FBI Deputy Director and released by the CID, in conjunction
with the Cyber Division, in FY 2005.

       Two supervisory-level FBI employees with substantial knowledge about
identity theft told us that they did not agree with the decision to transfer
control of the FBI’s identity theft program to the Cyber Division. These
employees also did not agree with the FBI’s decision to no longer conduct
comprehensive assessments of the identity theft threat on a regular basis.
When we raised these concerns with a senior FBI official, he stated that the
FBI must prioritize the use of its resources and he believed that the FBI
would have the greatest impact on identity theft by housing the program in
the division that targeted criminal elements operating on the internet.
Although the specific crime of identity theft is not an FBI priority, Cyber
Division officials informed us that identity theft is routinely addressed in the
FBI’s criminal intrusion program, which is currently a top FBI priority. Cyber
Division officials noted that identity theft is also addressed through its
internet fraud program.

       FBI officials told us that the FBI has intelligence collection
requirements for identity theft. However, comprehensive assessments that
reach across multiple program areas are not currently required. According
to these FBI officials, the FBI’s identity theft intelligence collection
requirements have led to the publication of 21 intelligence assessments and
bulletins, which resulted from 428 intelligence information reports. FBI
officials acknowledged, however, that the FBI’s current intelligence collection
requirements for identity theft are out of date and should be updated.

       The internal FBI communication that formally requested the transfer of
program control from CID to the Cyber Division stated that the identity theft
crime problem, by its very nature, cuts broadly across all operational
divisions and investigative programs of the FBI and requires a coordinated
corporate approach in the FBI’s response. In view of the recognition that
identity theft cuts across FBI divisions and programs, we believe there is an
increased need for periodic comprehensive identity theft assessments to be
conducted and updated. Without such assessments, there is not an
adequate mechanism for gathering and synthesizing the information about


                                          18
identity theft from all the affected divisions and programs, and the FBI’s
ability to make informed decisions and assign the appropriate level of
priority to identity theft matters is diminished. We recommend that the FBI
conduct periodic comprehensive assessments on identity theft.

FBI Identity Theft Data

      In FY 2006, the FBI reported identity theft investigation statistics in its
Financial Crimes Report to the Public. The reported figures are displayed in
the following exhibit.

                     FBI IDENTITY THEFT CASE DATA
                                FY 2006

             1,400

             1,200        1,255

             1,000

              800

              600

              400                         457
                                                           405
              200

                0
                          Cases        Indictments      Convictions


           Source: FBI 2006 Financial Crimes Report to the Public

      When we requested similar data for FYs 2007 through 2009, the FBI
informed us that it could not provide such data. Several of the FBI officials
with whom we spoke, including the Assistant Directors for the FBI’s Cyber
Division and CID, were unaware that the FY 2006 statistics even existed.
These officials said they did not believe that the FBI ever collected identity
theft data.

       We discussed this lack of identity theft data for FYs 2007 through 2009
with officials from CID and the Cyber Division. FBI officials stated that they
would try to determine whether it was possible for CID to compile identity
theft statistics for the investigations that were under CID control during the
requested timeframe. CID later informed us that system limitations
prevented it from compiling such data. The Unit Chiefs of CID’s Health Care
Fraud and Economic Crimes Units stated that they did not believe identity
theft was common in their investigations. The Unit Chief for the National


                                           19
Mortgage Fraud Unit, however, estimated that broader identity-related
crimes were discovered in 80 percent of the investigations overseen by that
unit. However, she was unsure how many of those crimes involved the
more specific crime of identity theft.

       At our request, the Cyber Division reviewed computer intrusion
investigations to determine the percentage of such cases that involved
identity theft. The Cyber Division reported to us that 62 percent of the
pending 1,180 computer intrusion investigations during FYs 2007 through
2009 involved the crime of identity theft.

       We are concerned about the FBI’s inability to produce current and
accurate data on identity theft crimes investigated by the FBI. The FBI’s
2005 intelligence assessment concluded that, “identity theft has emerged as
a dominant and pervasive financial crime that exposes individuals and
businesses to significant losses and undermines the credibility and operation
of the entire U.S. financial system.” Yet, the lack of updated, reliable data
on its identity theft investigations impairs the FBI’s ability to quantify the
prevalence and impact of the crime and to determine the appropriate
investigative priority for identity theft. We recommend that the FBI resume
collection and reporting of comprehensive data on its identity theft
investigations, including data on cases for which identity theft elements are
ancillary to the primary crime being investigated.

FBI Identity Theft Victim Assistance

      Like the USAOs, the FBI must comply with federal laws and Attorney
General Guidelines related to identity theft victim assistance. According to
the Attorney General Guidelines, identification of victims is primarily the
responsibility of the investigative agency. The Guidelines state that new
technology and traditional law enforcement methods can be used to identify
victims “regardless of whether the case involves large-scale mass violence
crimes or large-scale economic crimes.” Article X of the Attorney General
Guidelines, which pertains to identity theft victims, states that individuals
“do not have to know that their identity was misused in order to be victims,
nor does the victim have to have incurred a financial loss to be considered a
victim.”

      However, Cyber Division personnel told us that the Division generally
considers the primary victim in large scale computer intrusion cases to be
the institution whose system was breached. Individuals whose identities
were stolen or compromised in connection with the intrusion are generally
considered by the Cyber Division to be secondary or indirect victims. One
supervisor stated that when they deal with large-scale computer intrusion


                                         20
investigations they “do what they can” to assist individual identity theft
victims. Another FBI official stated that the FBI cannot always focus on
identifying the individual victims, especially in large-scale computer intrusion
cases, because it does not have the resources to identify what can
sometimes be over one million potential victims. For CID investigations, CID
policy states that it is the responsibility of the compromised institution or
business to identify and notify individual identity theft victims.

       We discussed the FBI’s approach to assisting identity theft victims with
personnel from the FBI’s Office for Victim Assistance, who noted that the
FBI’s current identity theft victim policies are inconsistent with the Attorney
General Guidelines. They believed that the FBI’s approach did not comply
with Article X of the Attorney General Guidelines, which does not
differentiate between direct and indirect victims in cases of identity theft.
However, these Office for Victim Assistance personnel recognized that there
are different definitions of “victims” under the primary federal statutes
covering victim assistance and Article X of the Attorney General Guidelines.

       Based on our discussions with FBI personnel, analysis of FBI policy and
documentation, and review of the Attorney General Guidelines for Victim and
Witness Assistance, we found confusion within the FBI about who qualifies as
an identity theft “victim” for identification and notification purposes. This
has led to an inconsistent approach to the FBI’s efforts to identify victims of
identity theft. In fact, we learned of recent instances where the FBI and
USAOs have disagreed on identity theft victim identification and notification
requirements. For example, in a recent identity theft case the FBI and local
USAO disagreed on whether to notify an estimated 17,000 victims.
According to the FBI, it believed that the victims should be notified, but the
USAO believed notification was not required. The disagreement was later
resolved by the Office of the Deputy Attorney General, which determined
that the victim notification was not required.

       We recommend that DOJ, EOUSA, the Criminal Division, and the FBI
review relevant federal laws and the current Attorney General Guidelines for
Victim and Witness Assistance and issue clear guidance to the affected
components to ensure that DOJ and its components follow a uniform policy
and take the legally required steps to identify and notify victims of identity
theft.




                                         21
       NCIC Identity Theft File

      In April 2005, the FBI added the Identity Theft File to the National
Crime Information Center (NCIC).28 The NCIC Identity Theft File allows law
enforcement to flag stolen identities and identify imposters. An identity
theft victim must consent to having their personal and biographic
information entered into the Identity Theft File as a victim profile.29 The
victim profile is available to law enforcement officers through a routine NCIC
query. A password created by the victim is included in the entry of the
victim’s information so that the victim can prove to law enforcement that the
victim is the true owner of the identity. According to FBI officials, the law
enforcement agency that enters the record should inform the victim that
victim profiles are automatically purged 5 years after entry. However,
victims may request that their profiles remain active as long as the criteria
for entry remain satisfied.

      The following table shows the number of active victim profiles in the
NCIC Identity Theft File and the number of profiles purged since the creation
of the file in April 2005, as reported by the FBI’s Criminal Justice Information
Services Division (CJIS).

                          NCIC Identity Theft File

              Active and Purged Victim Profiles by Fiscal Year30

            Fiscal Year        Active         Purged         Total
               2005             302              20           322
               2006            1,341            146          1487
               2007            2,426            600          3026
               2008            3,878            782          4660
               2009            4,008            779          4787
              TOTAL           11,955           2,327        14,282
      Source: FBI Criminal Justice Information Services Division




       28
           NCIC is a computerized database of criminal justice information that is available
at all times to virtually every law enforcement agency nationwide.
       29
            To qualify for entry into the NCIC Identity Theft File, the report taken by the law
enforcement agency must meet the following three criteria: (1) someone is using a means
of identification for the victim, (2) the identity of the victim is being used without the
victim's permission, and (3) the victim's identity is being used or intended to be used to
commit an unlawful activity.
       30
         Data for FY 2005 includes victim profiles entered or purged from April 2005
through September 2005. Data for FY 2009 is current through September 1, 2009.



                                                  22 

      According to CJIS, which manages NCIC, only 13 of the 11,955 active
victim profiles in NCIC were entered by federal law enforcement agencies,
including the FBI. Additionally, only 13 of the 2,327 purged records were
entered by federal law enforcement.

      According to the FBI Program Director for the Office for Victim
Assistance, the FBI assisted over 32,000 victims of identity theft between
late 2003 and June 2009. The Program Director stated that all FBI Victim
Specialists should provide identity theft victims with information about the
NCIC Identity Theft File. However, when we asked other FBI personnel
about the file, we found that an overwhelming number of these individuals
had never heard of the file, including the Section Chiefs for the FBI’s Cyber
Criminal Section and Financial Crimes Section.

       To better understand why so few of the FBI personnel with whom we
spoke were aware of the NCIC Identity Theft file and why so few victim
profiles were entered by the FBI, we discussed the training and outreach
efforts about the file with CJIS staff. According to CJIS personnel, there is a
training team that is responsible for training all federal, state, and local law
enforcement agencies on the use of NCIC and the multiple files it contains.
Generally, the NCIC training team provides requesting law enforcement
agencies with training options for all NCIC files. The requesting agency then
chooses the specific NCIC files it wants the training session to cover.
According to one of the trainers, state and local law enforcement agencies
choose to receive instruction on the NCIC Identity Theft File less than
50 percent of the time, and FBI field offices have never requested such
training. This individual also noted that while new FBI agents receive
training about NCIC at the FBI Academy, only a few minutes of that
instruction is spent on the Identity Theft File.

       We also asked representatives from other DOJ and non-DOJ federal
agencies if they had ever heard of the NCIC Identity Theft File. As in the
FBI, an overwhelming number of the individuals we interviewed had never
heard of the file. The only exceptions were those who took part in the
identity theft training group led by the Criminal Division. These individuals
noted that the training they provide to state and local law enforcement
personnel includes a segment on the NCIC file. When we explained the
NCIC Identity Theft File to one high-ranking DOJ official familiar with victims’
rights issues, the official stated that the FBI appears to have missed an
opportunity to help victims by not adequately promoting the file.

     The low number of victim profiles in the NCIC Identity Theft File
suggests that the file is underutilized by federal, state, and local officials.



                                           23
We believe this underutilization is primarily the result of a lack of training
and outreach about the file.

      We believe the FBI should conduct a full evaluation of the usefulness
of the NCIC Identity Theft File to determine its continued viability. If the FBI
determines that the Identity Theft File is a valuable part of its identity theft
enforcement efforts, it should ensure that all FBI Special Agents and Victim
Specialists receive training on the file and that the file is being populated.
The FBI should also develop additional outreach plans to ensure that state
and local law enforcement agencies are aware of the file’s existence.

Other Identity Theft-Related Initiatives

       Although the specific crime of identity theft is not among the FBI’s top
priorities, FBI officials told us it is often addressed in other broader-based
FBI cyber crime initiatives, which the FBI considers to be priority activities.

       Internet Crime Complaint Center

       The Internet Crime Complaint Center (IC3) is a partnership between
the FBI and the National White Collar Crime Center.31 IC3’s mission is to
serve as the central clearinghouse and repository for complaints from
industry and private citizens regarding cyber crime. According to its 2008
Annual Report, 2.5 percent of the 275,284 online complaints received by IC3
in calendar year 2008 involved identity theft.32 The FBI Acting Unit Chief for
IC3 said these complaints are referred for investigation, when appropriate,
to the FTC, FBI field offices, and other law enforcement agencies. IC3 also
prepares cyber crime trend reports that it shares with the law enforcement
community. IC3 regularly publishes online public service announcements
aimed at educating the American public about identity theft risks and
prevention.

       InfraGard

      According to its website, InfraGard is a partnership between the FBI
and the private sector. It includes an association of businesses, academic

       31
           According to its website, the National White Collar Crime Center is a non-profit
membership organization dedicated to supporting law enforcement in the prevention,
investigation, and prosecution of economic and high-tech crime.
       32
           According to the Acting Unit Chief for IC3, these complaints were categorized as
identity theft by the individual filing the complaint. If a subsequent investigation was
opened by a law enforcement agency, such as the FBI, the investigation could have been
categorized differently.


                                                 24
institutions, state and local law enforcement agencies, and other participants
that share information and intelligence to prevent hostile acts against the
United States. While InfraGard does not have a specific identity theft-
related function, according to the FBI Unit Chief who oversees InfraGard, it
provides a mechanism through which member institutions that are hacked or
otherwise compromised can securely share information to help prevent
similar events. Such information may be shared with the FBI, although
there is no requirement that members do so.

      Training and Outreach Efforts

      The Cyber Division provides numerous training sessions in the United
States and throughout the world. Although these training sessions typically
cover the broader topic of cyber crime, many also cover the more specific
crime of identity theft. According to the Assistant Director for the Cyber
Division, the Cyber Division tries to focus its international training efforts in
countries where the FBI believes cyber criminals pose the greatest risk.

Recommendations

       We are concerned that the FBI’s focus on the problem of identity theft
has diminished since 2007. The FBI does not currently consider the specific
crime of identity theft to be among its top priorities. However, identity theft
is investigated in a significant number of its priority programs including
computer intrusion and mortgage fraud investigations, in addition to other
types of high priority investigations such as its national security
investigations.

       Because identity theft cuts across many different types of criminal
activity and is reported to be one of the fastest growing crimes in the United
States, we believe the FBI should refocus attention on this issue.
Specifically, we recommend that the FBI generate periodic comprehensive
assessments related to the identity theft threat. In addition, the FBI should
maintain data regarding its identity theft investigations to help ensure that
the FBI has information necessary to determine the appropriate priority to
assign to its identity theft program.

      In addition, we recommend that DOJ, EOUSA, the Criminal Division,
and the FBI review relevant federal laws and the Attorney General
Guidelines for Victim and Witness Assistance and issue clear guidance to
ensure that the DOJ components take appropriate steps to identify and
notify victims of identity theft. Finally, if the FBI determines that the NCIC
Identity Theft File remains a valuable law enforcement and victims’
assistance tool, the FBI should ensure that its FBI personnel receive more


                                           25
information about this file so that identity theft victims are informed of the
file and its purpose.

We recommend that the FBI:

      8.	    Reassess its intelligence collection requirements for identity theft
             and conduct periodic comprehensive assessments on the identity
             theft threat.

      9.	    Maintain statistics on identity theft investigations, including
             cases with ancillary identity theft elements.

      10.	   Perform an evaluation of the NCIC Identity Theft File to
             determine its continued viability. If the FBI determines that the
             NCIC Identity Theft File is still viable, the FBI should ensure that
             appropriate FBI personnel are trained on its use.

We recommend that the Department of Justice, Criminal Division, EOUSA,
and FBI:

      11.	   Review relevant laws and Attorney General Guidelines for Victim
             and Witness Assistance and issue clear guidance to all DOJ
             components to ensure compliance with the law and Guidelines
             and that uniform steps are taken by DOJ personnel to identify
             and notify victims of identity theft.

Office of Justice Programs

       The Office of Justice Programs (OJP) awards a broad range of grants
relating to crime prevention and control, improving justice systems,
increasing knowledge about crime, and assisting crime victims. Among the
offices and bureaus within OJP are the Bureau of Justice Statistics (BJS), the
Office for Victims of Crime (OVC), the Bureau of Justice Assistance (BJA),
the National Institute of Justice (NIJ), the Office of Juvenile Justice and
Delinquency Prevention (OJJDP), and the Community Capacity Development
Office (CCDO). We interviewed personnel from each of these OJP offices to
determine what efforts they have taken to address identity theft.

Identity Theft Statistics

      The mission of BJS is to collect, analyze, publish, and disseminate
information on crime, criminal offenders, victims of crime, and the operation
of justice systems at all levels of government. As part of that effort, every



                                           26
year BJS conducts the National Crime Victimization Survey (NCVS).33 In
July 2004 BJS added identity theft-related questions to the NCVS. The
following chart shows the results of the most recent surveys and the number
of months it took BJS to publish the results. Although BJS continues to
include questions related to identity theft in the NCVS, we were informed
that funding and resource limitations will delay the reporting of the 2006
identity theft results until the summer of 2010.

                    BUREAU OF JUSTICE STATISTICS
                NATIONAL CRIME VICTIMIZATION SURVEYS
                     IDENTITY THEFT INFORMATION
                                Estimated
                                                                         Time Elapsed
  Period Covered by            Households
                                                  Publication Date      between Survey
        Survey                Victimized by
                                                                        and Publication
                             Identity Theft34
July 2004 through
                                3.6 million           April 2006           16 months
December 2004
January 2005 through
                                6.4 million       November 2007            23 months
December 2005
January 2006 through                                  Projected
                                 Unknown                                  42+ months
December 2006                                         mid-2010
Source: OIG analysis of BJS information


      Additionally, in 2006 BJS began planning for a more comprehensive
one-time survey supplement specifically focused on identity theft. This
supplement, developed in partnership with BJA, NIJ, FTC, and OVC, was
conducted in 2008. The supplement collected information from individuals
age 16 years and older from the same households that received the survey
for the first 6 months of 2008. However, due to data processing problems
the results of the identity theft supplement are not expected to be published
by BJS until at least the fall of 2010. According to BJS, there are currently
no plans to conduct future identity theft supplements to the survey.
According to BJS officials, additional identity theft supplements would
require new funding.


       33
          According to BJS’s website, the NCVS is the nation’s primary source of information
on criminal victimization. Each year data is obtained from a nationally representative
sample of 76,000 households (comprising nearly 135,300 persons) on the frequency,
characteristics, and consequences of criminal victimization in the United States.
       34
        This statistic represents the estimated number of households that had at least one
member victimized by identity theft during that period.


                                                27
       A specific recommendation of the President’s Task Force was for BJS to
expand the scope of the NCVS to collect information about the
characteristics, consequences, and extent of identity theft for individuals
ages 12 and older. The Task Force noted that the NCVS only collected data
from the household respondent and did not capture data on multiple victims
in the household or multiple episodes of identity theft. Such individualized
identity theft data was collected in the one-time 2008 identity theft
supplement and by the FTC in surveys conducted in 2003 and 2006.
However, we were informed by FTC officials in September 2009 that the FTC
is no longer conducting identity theft surveys. BJS told us that it would like
to regularly capture data about individual victims, but it had no plans to
expand the collection from the NCVS beyond household data. BJS cited
resource limitations as the reason for its inability to expand its work.

OJP’s Identity Theft Working Group

       In 2004, OJP formed its own internal identity theft working group,
which was primarily organized by a representative from the Office for
Victims of Crime (OVC) and chaired by a Deputy Assistant Attorney General
for OJP. The OJP working group addressed internal OJP matters, such as
protection of OJP employee data, as well as external matters, such as the
funding of identity theft programs and research. The working group also
attempted to ensure that OJP bureaus and offices did not duplicate efforts on
identity theft issues. Working group meetings were attended by
representatives from OJP bureaus and offices, including BJS, NIJ, OJJDP, and
CCDO. In addition, representatives from other DOJ offices, including COPS
and the Office on Violence Against Women regularly attended.

      The OJP working group meetings were held on a regular basis until
late 2007, when the primary organizer from OVC was placed on a 1-year
assignment outside of OVC. During the period that this individual was on
assignment meetings were not organized and the working group’s activities
ceased. By the time the OVC representative completed her assignment, the
then Deputy Assistant Attorney General was no longer taking a leadership
role on the working group and no further meetings were scheduled.

      However, the newly appointed Deputy Assistant Attorney General
informed us that she is aware of the working group’s prior efforts and
supports resurrecting the working group. When we met with the Deputy
Assistant Attorney General in August 2009, she said that a working group
meeting was scheduled for September 2009. When we later inquired about
that scheduled meeting, we were informed that the meeting took place in
December 2009. We recommend that OJP ensure that its Identity Theft
Working Group continues to meet regularly to make certain that each office


                                        28
and bureau is appropriately considering future identity theft-related
initiatives.

Identity Theft-Related Funding Efforts

       In recent years, OJP has supported various identity theft initiatives.
For example, in 2006 OVC disseminated the FTC’s Deter, Detect, Defend
consumer awareness kit to over 4,500 victim service providers nationwide,
attended the National Association of Victim Assistance Administrators
Conference to encourage program expansion to victims of identity theft, and
supported the ID Theft Victim Verification Passport Program through the
Ohio Attorney General’s Office. In addition, NIJ funded a comprehensive
identity theft research review, which was released in July 2007. BJA, in
partnership with the National Crime Prevention Council, aired a televised
public service campaign related to identity theft. OJJDP has provided
funding for non-profit organizations that have developed internet-safety
websites designed to protect children from internet crime, including identity
theft. CCDO hosted law enforcement conferences in 2006 and 2007 that
included sessions for vulnerable victim populations on identity theft.

       We were informed of two upcoming OJP efforts specifically targeting
identity theft: OVC’s plan to provide funding in 2010 for a competitive grant
program entitled “National Network to Support Identity Theft Victim
Assistance”, and a BJS-funded study that will examine identity fraud and
charges brought under the Identity Theft Assumption and Deterrence Act.35

       Several OJP officials told us that identity theft was a popular topic
following the creation of the President’s Task Force. However, they indicated
that interest in identity theft initiatives faded within the law enforcement
community after the work of the task force was completed.

Recommendations

       BJS plays a key role, along with the FTC, in examining the impact of
identity theft on U.S. citizens each year. We are concerned about the
timeliness of the identity theft statistics reported by BJS. As noted earlier,
BJS does not expect to report on the identity theft results from the FY 2006
survey and the 2008 identity theft supplemental survey until sometime in
2010. We believe there is a significant risk that these figures will be stale
when they are published because they will not provide a reliable assessment
of the current impact of identity theft on U.S. households. Furthermore, we


      35
           Pub. L. No. 105-318 (1998).


                                         29
were informed by FTC officials in September 2009 that they are no longer
conducting the identity theft survey that was conducted in 2003 and 2006.

      We believe the identity theft data collected by BJS is more important
than ever. Therefore, we recommend that DOJ work with BJS to evaluate
the timeliness of BJS’s identity theft statistics. DOJ and BJS should also
consider the President’s Task Force recommendation to expand the scope of
the NCVS to gather data about individual identity theft victims. Finally, we
believe that OJP should ensure that its identity theft working group
continues to meet regularly to assess whether future initiatives from BJA,
NIJ, OJJDP, and CCDO should target identity theft specifically.

We recommend that the Department of Justice, OJP, and BJS:

     12.	    Ensure that identity theft statistics gathered through the
             National Crime Victimization Survey are reported in a timely
             manner.

     13.		   Evaluate the feasibility of regularly collecting identity theft data
             for individual victims instead of households.

We recommend that OJP:

     14.	    Ensure that its Identity Theft Working Group continues to meet
             regularly to make certain that each office and bureau is
             appropriately considering future identity theft-related initiatives.

Community Oriented Policing Services

       COPS is the DOJ component responsible for advancing the practice of
community policing by the nation’s state, local, and tribal law enforcement
agencies. COPS awards grants to law enforcement agencies to hire and
train community policing professionals, acquire and deploy crime-fighting
technologies, and develop and test policing strategies.

       According to COPS officials, they have had limited involvement in
identity theft issues. These officials provided examples of two COPS identity
theft initiatives. First, in June 2004, COPS published a guide book on
identity theft that summarized how local police can reduce the harm caused
by identity theft. Second, COPS sponsored an identity theft study titled, “A
National Strategy to Combat Identity Theft.” This study was conducted by
Johns Hopkins University and publicly released in May 2006. According to
COPS personnel, no other identity theft initiatives are planned for the
immediate future.


                                           30
Conclusion

       We believe that DOJ’s current approach to combating identity theft is
not adequate based on the prevalence of the crime. Identity theft was
recently reported to be fastest growing crime in 2008, affecting an estimated
10 million Americans annually. As the President’s Task Force recognized,
the harm caused to these millions of victims is not only financial in nature,
but it can be emotionally traumatic because of the countless hours spent
repairing damage to the victims’ names and credit histories. As the Deputy
Assistant Attorney General for DOJ’s Criminal Division stated in 2009,
identity theft is a problem “that continues to evolve as criminals develop
more sophisticated and diverse methods to access and exploit the personal
information of others.”

      For these reasons, we believe DOJ should take a more proactive
approach to ensure that it is addressing this growing crime in a more
coordinated, strategic, and effective manner. In this audit report, we
therefore provide 14 recommendations to improve the Department’s
approach to combating identity theft.




                                        31
                                                                 APPENDIX I


               OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

       The objective of this audit was to evaluate how the Department of
Justice has communicated and implemented its strategy to combat identity
theft.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

      To accomplish our audit objective, we interviewed officials at the Office
of the Deputy Attorney General, Criminal Division, EOUSA, two USAOs, FBI,
OJP, and COPS. We also interviewed personnel from non-DOJ agencies
including the U.S. Secret Service, Federal Trade Commission, Social Security
Administration Office of the Inspector General, and the U.S. Postal
Inspection Service. To further accomplish our objective we reviewed data
obtained from EOUSA and FBI relating to identity theft investigations,
prosecutions, and victims.

EOUSA Identity Theft Data

      We requested that EOUSA provide us with data for FYs 2007 through
2009 regarding the number of: (1) identity theft cases prosecuted by
USAOs, (2) identity theft convictions obtained by USAOs, (3) EOUSA/USAO
personnel utilized to prosecute identity theft cases, and (4) identity theft
victims entered into the Victim Notification System.

      According to EOUSA officials, the data provided by EOUSA could only
be considered baseline data as USAOs were not uniformly recording identity
theft data during the requested time period. Accordingly, we did not test or
verify the validity of the data provided by EOUSA and our report does not
contain conclusions that are based on analyses of the data.




                                         32
FBI Identity Theft Data

      According to its Fiscal Year 2006 Financial Crimes Report to the Public,
the FBI reported that 1,255 investigations resulted in 457 indictments and
405 convictions of identity theft criminals in FY 2006. When we requested
similar data for FYs 2007 through 2009, we were informed by the FBI that it
could not provide such data. According to FBI officials, the only identity
theft data it could provide was an estimate of the percentage of computer
intrusion cases that contained an identity theft element. Accordingly, we did
not test or verify the validity of the data provided by the FBI and our report
does not contain conclusions that are based on analyses of the data.

Internal Controls and Compliance with Laws and Regulations

       Our audit objectives were informational in nature. Our assessment of
internal controls was limited to our review of identity theft data provided by
EOUSA and the FBI and to DOJ components’ application of the Attorney
General Guidelines for Victim and Witness Assistance. As noted in the body
of this report, we identified our concerns with the accuracy of the data
provided to us. However, we did not perform an independent, overall
assessment of the reliability of the data in EOUSA’s or the FBI’s automated
systems. Nonetheless, we believe that the overall results presented have
utility for looking at the DOJ’s overall efforts to combat identity theft. In
addition, we identified our concerns with the apparent confusion that exists
among DOJ personnel regarding the application of the Attorney General
Guidelines in cases of identity theft. Further, we determined that examining
compliance with laws and regulations was not significant to our objectives,
and our audit did not reveal any instances of fraud or noncompliance.




                                         33
                                                              APPENDIX II

       IDENTITY THEFT ENFORCEMENT INTERAGENCY
        WORKING GROUP PARTICIPATING AGENCIES
                              AS OF JANUARY 2010


Department of Health and Human Services

     Office of Inspector General

Department of Homeland Security

     Immigration and Customs Enforcement

     Office of Policy

     U.S. Secret Service

Department of Justice

     Criminal Division
           Computer Crime and Intellectual Property Section
           Domestic Security Section
           Fraud Section [Working Group Chair]

     Executive Office for U.S. Attorneys

     Federal Bureau of Investigation
          Cyber Division

     Office of Justice Programs
           Bureau of Justice Statistics
           Office for Victims of Crime

     Office of Legal Policy

     U.S. Attorney’s Offices (ca. 40)




                                          34
Department of State

     Bureau of Consular Affairs
          Office of Fraud Prevention Programs
          Passport Services
                Customer Service Division
                Office of Passport Integrity and Internal Control

     Diplomatic Security Service

     Office of the Legal Adviser

Department of the Treasury

     Internal Revenue Service
           Criminal Investigation
           Online Fraud Detection and Prevention
           Office of Privacy, Information Protection and Data Security

     Office of Critical Infrastructure Protection and Compliance Policy

     Office of Privacy and Civil Liberties

     Treasury Inspector General for Tax Administration

Department of Transportation

     Federal Motor Carrier Safety Administration
          Commercial Driver's License Division

Federal Deposit Insurance Corporation

Federal Reserve Board




                                         35
Federal Trade Commission

      Bureau of Consumer Protection
           Division of Privacy and Identity Protection

National District Attorneys Association

Securities and Exchange Commission

      Division of Trading and Markets

Social Security Administration

      Office of the Inspector General

U.S. Postal Inspection Service




                                          36
                                                                                 APPENDIX III

DEPARTMENT OF JUSTICE AND COMPONENT RESPONSES
MEMORANDUM

TO:		          Raymond J. Beaudet
               Assistant Inspector General for Audit
               Office of Inspector General

FROM:		        Scott N. Schools
               Associate Deputy Attorney General
               Office of the Deputy Attorney General

SUBJECT:		 Department of Justice Responses to the OIG’s Draft Report:
           “The Department of Justice’s Efforts to Combat Identity Theft”

        The Office of the Deputy Attorney General (ODAG) very much appreciates the
opportunity to review and respond to the Office of Inspector General (OIG) draft audit report
entitled, “The Department of Justice’s Efforts to Combat Identity Theft ” (Report). In the
transmittal memorandum that accompanied the draft report, OIG requested separate responses
from the addressees. This memorandum transmits those separate responses and provides the
substantive responses of ODAG to Recommendations 1-3 and a coordinated response to
Recommendation 11, which was directed to the Department of Justice (Department or DOJ)
generally as well as to the Criminal Division, the Executive Office for United States Attorneys
(EOUSA), and the Federal Bureau of Investigation (FBI). Recommendations 12 and 13 were
directed to the Department generally as well as to the Office of Justice Programs (OJP) and the
Bureau of Justice Statistics. The Department’s responses to those recommendations are reflected
in OJP’s submission. ODAG reviewed and concurred with the attached responses.

        The Report evaluates the Department’s prosecution efforts based in part on numbers of
cases brought and defendants prosecuted. The Department’s efforts to combat identity theft often
are directed at large scale identify theft organizations and operations. Such prosecutions are
resource intensive and can result in a reduction in the actual number of cases prosecuted even
though a single prosecution of a large scale identity theft offender can have a much larger impact
than multiple smaller prosecutions. For example, since the OIG initiated the audit in June 2009,
(1) four defendants were charged in the Northern District of Georgia with identity theft and other
crimes as a result of their alleged participation in an international hacking ring involving a $9
million fraud, (2) six defendants and alleged members of the Bonanno crime family pleaded guilty
to racketeering activities including identity theft in the Southern District of Florida, (3) the FBI
arrested 33 defendants in an international identity theft ring targeting online bank accounts, and (4)
a computer hacker accused of masterminding one of the largest cases of identity theft in United
States history pleaded guilty in the District of Massachusetts. These examples are illustrative of
the quality of the cases behind the numbers referenced in the Report.

        The Report notes that other federal, state and local law enforcement agencies also play a




                                                 37
vital role in combating identity theft. Although the OIG interviewed representatives from several
non-DOJ agencies involved in addressing identity theft, the audit team advised that a full review of
the efforts of non-DOJ agencies was not within the scope of the OIG’s review. Although the
Department generally agrees with the recommendations contained in the Report, we likewise want
to be sure to emphasize that our law enforcement partners at the United States Secret Service, the
United States Postal Inspection Service, and state and local law enforcement agencies play a
critical role in the overall effort to combat identity theft. The Department relies on these efforts to
support and supplement the Department’s strategy.

        These observations are included in this response merely to provide some additional context
to the Report. The Department recognizes the importance of a well-coordinated approach to
investigating and prosecuting identity theft and meeting the needs of victims. Such an approach
was reflected in the President’s Identity Theft Task Force Strategic Plan to Combat Identity Theft
released in April 2007. The steps taken to implement that plan were described in the Task Force
Report that was issued in September 2008. In particular, the Strategic Plan included a law
enforcement strategy, much of which was implemented as reflected in the Task Force Report.
Many of the law enforcement initiatives implemented subsequent to the issuance of the Strategic
Plan remain in place. However, the Department agrees that greater coordination and oversight
from the Department would enhance the Department’s efforts to combat identity theft and agrees
with the recommendations contained in the Report. The Department’s specific responses to
Recommendations 1-3 and 11 are set forth below.

Recommendation 1: That the Department of Justice coordinate its identity theft efforts based on
a review of the President’s Task Force’s strategic plan and consultation with the relevant
components involved in identity theft issues. DOJ should also monitor compliance with the
President’s Task Force recommendations and ensure further implementation where appropriate.

Response: The Department agrees with and will implement this recommendation. The
Department considers this recommendation resolved.

Recommendation 2: That the Department of Justice designate a DOJ official or office as the
individual or entity responsible for coordinating DOJ’s identity theft efforts. DOJ should also
direct each relevant component to designate an individual or office responsible for monitoring
their agency’s efforts and communicating their efforts to DOJ as requested.

Response: The Department previously identified an individual responsible for having oversight
responsibilities for the Department’s identity theft strategy; however, the Department will identify
an individual to assume a more active role in coordinating the Department’s identity theft efforts in
a manner consistent with Recommendation 1. In addition, the Department agrees with and will
direct the relevant components to designate an individual or office responsible for monitoring their
agency’s efforts and communicating their efforts to the Department as requested. T he
Department considers this recommendation resolved.

Recommendation 3: That the Department of Justice conduct periodic meetings with the
components’ newly designated identity theft coordinators to ensure that the DOJ’s approach to
identity theft remains viable and that adjustments are made to DOJ’s approach when necessary.



                                                38
Response: The Department agrees with and will implement this recommendation. The
Department considers this recommendation resolved.

Recommendation 11: That the Department of Justice, Criminal Division, EOUSA, and FBI
review relevant laws and Attorney General Guidelines for Victim and Witness Assistance and
issue clear guidance to all DOJ components to ensure compliance with the law and Guidelines and
that uniform steps are taken by DOJ personnel to identify and notify victims of identity theft.

Response: The Department and the identified components agree that clear guidance should be
issued consistent with applicable law and Department policy regarding identifying and providing
services to victims of identity theft. This effort may include reviewing and revising as necessary
the Attorney General Guidelines for Victim and Witness Assistance or issuing guidance that
clarifies what is required under existing guidelines and applicable law. The Department will
coordinate this effort with the Office for Victims of Crime and other relevant components. The
Department considers this recommendation resolved.

       In conclusion, the Department concurs with all of the recommendations in the Report.
ODAG appreciated the professionalism exhibited by your staff in working jointly with our
representatives to complete this audit. Please feel free to contact me should you have any
questions.



Enclosures




                                             39
	
                                                       U.S. Department of Justice

                                                       Criminal Division



                                                       Washington, D.C. 20530


                                                       March 18, 2010


MEMORANDUM

TO:		          Raymond J. Beaudet
               Assistant Inspector General for Audit
               Office of the Inspector General

FROM:		        Mythili Raman
               Principal Deputy Assistant Attorney General and Chief of Staff

SUBJECT:		 Criminal Division Response to Draft Office of Inspector General
           Draft Audit Report the Department of Justice’s Efforts to Combat
           Identity Theft_________________________________________________

         This memo sets forth the responses to the recommendations pertaining to the Criminal
Division in the Office of the Inspector General (OIG) draft audit report entitled The Department
of Justice’s Efforts to Combat Identity Theft. We understand that certain recommendations that
relate to multiple components of the Department will be addressed by other offices, such as the
Office of the Deputy Attorney General.

       1.     Recommendation 4. Expand the scope of the Identity Theft Enforcement
Interagency Working Group (ITEIWG) to more regularly include identity theft-related topics
previously covered by the other subgroups of the President’s Identity Theft Task Force, such as
education and outreach, data protection, and identity theft victims, issues.

Criminal Division Response: The Criminal Division agrees to ensure that the ITEIWG will
continue to address the full range of identity theft topics that are of concern to its members,
including complaint reporting and analysis, investigation, prosecution, sentencing, prevention
and education, data protection, and victim assistance. It should be noted that before the date of
the exit conference, the Federal Bureau of Investigation (FBI) Office of Victim Assistance
accepted an invitation to join the ITEIWG, and the Office of Community Oriented Policing
Services agreed to be placed on the ITEIWG email list for notices of future meetings. The
Criminal Division considers this recommendation resolved.

        2.     Recommendation 5. Formalize the identity theft training group currently being
led by the Criminal Division and consider ways to expand its reach to state, local, and tribal law
enforcement agencies.




                                               40
Criminal Division Response: The Criminal Division agrees with this recommendation. The
ITEIWG has already formally created a Training Subgroup to track and seek to develop
additional training opportunities for federal, state, local, and tribal law enforcement agencies and
has contacted Working Group members to solicit representatives for this subgroup. The
Criminal Division considers this recommendation resolved.

        If you have further questions concerning this response, please do not hesitate to contact
this Office.




                                                41
                                                       U.S. Department of Justice

                                                       Executive Office for United States Attorneys
                                                       Office of the Director


                                                       Main Justice Building, Room 2244A         (202) 514-2121
                                                       950 Pennsylvania Avenue, N. W.
                                                       Washington, D.C. 20530




MEMORANDUM

DATE:		        March 19, 2010

TO:		          Raymond J. Beaudet
               Assistant Inspector General for Audit

FROM:		        Norman Wong
               Deputy Director / Counsel to the Director
               Executive Office for United States Attorneys

SUBJECT:		 Response to OIG’s Report Entitled:
           “Department of Justice’s Efforts to Combat Identity Theft”

This memorandum is submitted by the Executive Office for United States Attorneys (EOUSA) in
response to the report by the Office of Inspector General (OIG) entitled “Department of Justice’s
Efforts to Combat Identity Theft.” EOUSA appreciates OIG’s efforts to promote integrity,
efficiency, and effectiveness in the enforcement of federal criminal and civil laws. It is in this spirit
that EOUSA accepts and will endeavor to carry out OIG’s recommendations to the best of its ability.

Unlike most other DOJ components, EOUSA and the United States Attorneys’ offices (USAOs) do
not constitute a single hierarchical organization with a headquarters office directing policy decisions
and resource management. Rather, each United States Attorney (USA) is the chief law enforcement
officer in his or her district. Each USA, unless serving in an acting or interim capacity, is appointed
by the President and confirmed by the Senate. As a holder of high office, the USA is afforded
significant discretion to manage his or her office according to locally perceived priorities and needs,
consistent with overarching Departmental priorities. The 94 USAOs vary in size from 20 employees
to over 800 employees. Each office has a unique identity and local “office cultures” vary greatly.

It is in this context that EOUSA interacts with the USAOs to “[p]rovide general executive assistance
and supervision to the offices of the U.S. Attorneys.” 28 C.F.R. § 0.22. The LIONS case
management system is maintained by EOUSA as a tool to assist the United States Attorneys in
assessing staff caseloads and managing their offices. For this reason, the United States Attorneys
maintain flexibility in the manner in which they may enter data about criminal cases being prosecuted
in their districts. Because the LIONS system was not designed as a statistical system, it can be an
imperfect tool for responding to specific, detailed inquiries seeking comprehensive, uniform
nationwide data sought for purposes other than case management. We appreciate that OIG took this




                                                  42
into consideration in preparing this report.

Recommendations

EOUSA welcomes this review as an opportunity to make the recommended improvements in these
areas. EOUSA will endeavor to implement both of the report’s recommendations to the best of its
ability.

       6. 	    Transmit a memorandum to all USAOs requiring each office to report on its current
               identity theft efforts, including the status of its efforts related to the implementation of
               the President’s Task Force recommendations. USAOs should also report on the steps
               taken by the district to ensure that its case management data and attorney time
               allocation data on identity theft is fully and accurately reported.

        EOUSA will prepare and disseminate such a memorandum within 90 days. To the extent that
there is a technical change or an alteration in the policy and practice regarding the entry of case data in
the LIONS system, EOUSA will communicate with your office regarding any additional time that may
be required.

       7. 	    Perform a comprehensive assessment of NICLE to determine whether it should be
               housed in DOJ and expanded nationally.

       EOUSA would be pleased to participate in a Departmental assessment of the NICLE system.




                                                  43
	
                                                        U.S. Department of Justice
                                                        Federal Bureau of Investigation
                                                        Washington, D. C. 20535-0001




                                                       March 22, 2010



Raymond J. Beaudet
Assistant Inspector General
  for Audit
Office of the Inspector General
U.S Department of Justice
Suite 5000
1425 New York Avenue, N.W.
Washington, D.C. 20530


Dear Mr. Beaudet:

               The Federal Bureau of Investigation (FBI) appreciates the opportunity to review
and respond to your draft audit report entitled, "The Department of Justice's Efforts to Combat
Identity Theft" (hereinafter "Report").

                We are pleased that the Report acknowledges the FBI=s decision to place its
identity theft program within the Cyber Division in order to focus the FBI's resources on the
highest priority identity theft investigations. In doing so, the FBI has focused its efforts on those
identity theft cases which involve the most victims, the greatest financial loss, and the highest
degree of organized criminal activity. We are also pleased that the Report recognizes how
frequently identity theft issues are addressed through these high priority criminal intrusion cases.
As the OIG notes, 62 percent of the 1,180 pending computer intrusion investigations during fiscal
years 2007 to 2009 involved identity theft.

                 Additionally, the FBI is pleased that this Report reflects the FBI's other
broad-based identity theft initiatives, including the Internet Crime Complaint Center (IC3), which
regularly publishes online public service announcements aimed at educating the public about
identity theft risks and prevention. The FBI is proud that it is successfully addressing identity theft
on several different levels - from public service announcements to sophisticated computer
intrusion investigations aimed at stealing identities.

                In conclusion, based upon a review of the Report, the FBI concurs with the four
recommendations directed to the FBI. The FBI appreciates the professionalism exhibited by your
staff to complete this Report. Enclosed herein are the FBI's responses to the recommendations.
Please feel free to contact me at 202-324-2901 should you have any questions or need further
information.

                                                 Sincerely yours,


                                                Amy Jo Lyons
                                                Assistant Director
                                                Inspection Division


                                                 44
              OIG REVIEW of the DEPARTMENT of JUSTICE’S EFFORTS
	
                         to COMBAT IDENTITY THEFT
	
                                FBI RESPONSE TO
	
               RECOMMENDATIONS CONTAINED in the FINAL DRAFT
	


Report Recommendation #8: “Reassess its intelligence collection requirements for identity theft
and conduct periodic comprehensive intelligence assessments covering identity theft.”

FBI Response to the Final Draft: Concur. The FBI will update its intelligence collection
requirements for identity theft and conduct a threat assessment on "Identity Theft." The FBI
considers this recommendation resolved.

Report Recommendation #9: “Maintain statistics on identity theft investigations, including
cases with ancillary identity theft elements.

FBI Response to the Final Draft: Concur. The FBI will examine ways to use case management
procedures to improve the tracking of identity theft cases so that statistics on identity theft
investigations, including cases with ancillary identity theft elements, can be maintained. The FBI
considers this recommendation resolved.

Report Recommendation #10: “Perform an evaluation of the NCIC Identity Theft File to
determine its continued value. If the FBI determines that the NCIC Identity Theft File is still
viable, the FBI should ensure that appropriate FBI personnel are trained on its use.”

FBI Response to the Final Draft: Concur. The FBI will perform an evaluation of the NCIC
Identity Theft File to determine its continued viability and take appropriate action. The FBI
considers this recommendation resolved.

Report Recommendation #11: “Review relevant laws and Attorney General Guidelines for
Victim and Witness Assistance and issue clear guidance to all DOJ components to ensure
compliance with the law and Guidelines and that uniform steps are taken by DOJ personnel to
identify and notify victims of identity theft.” (Recommendation Directed at DOJ, Criminal
Division (DOJ), EOUSA, and the FBI.)

FBI Response to the Final Draft: Please refer to ODAG submission for joint response.




                                                45
MEMORANDUM TO:		               Raymond J. Beaudet
                               Assistant Inspector General for Audit
                               Office of the Inspector General
                               United States Department of Justice

FROM:		                        Laurie O. Robinson
                               Assistant Attorney General

SUBJECT:		                     Response to Office of the Inspector General’s Draft Audit Report,
                               Audit of the Department of Justice’s Efforts to Combat Identity
                               Theft

        This memorandum provides a response to the recommendations directed to the Office of
Justice Programs (OJP) included in the Office of the Inspector General’s (OIG’s) draft audit
report entitled, Audit of the Department of Justice’s Efforts to Combat Identity Theft. The draft
audit report contains 14 recommendations, of which three recommendations pertain to the OJP.

        The OJP’s response to Recommendation Numbers 12, 13, and 14 are detailed below. For
ease of review, the recommendations are restated in bold and are followed by our response.

12. 	   Ensure that identity theft statistics gathered through the National Crime
        Victimization Survey are reported in a timely manner.

        The OJP agrees with the recommendation and concurs that it is important to timely
        publicize identity theft statistics. While data releases from the National Crime
        Victimization Survey (NCVS) have not been timely, the Bureau of Justice Statistics
        (BJS) is working to improve this situation. BJS is committed to reducing the time
        required to initially release all data, including the identity theft estimates produced from
        the ongoing NCVS and the Identity Theft Supplement to the NCVS. Accordingly, BJS
        anticipates releasing the 2006 through 2008 identity theft statistics on its website by June
        2010. The OJP considers this recommendation resolved and requests written acceptance
        of this action from your office.

13.		   Evaluate the feasibility of regularly collecting identity theft data for individual
        victims instead of households.

        The OJP agrees with the recommendation. BJS is currently conducting an evaluation to
        determine the feasibility of collecting data on identity theft from individual victims. BJS
        will compare the identity theft data collection procedures for the individual and
        household approaches, and determine the best approach. Additionally, BJS will report
        their findings to the OIG as they become available. The OJP considers this
        recommendation resolved and requests written acceptance of this action from your office.

14.		   Ensure that its Identity Theft Working Group continues to meet regularly to make
        certain that each office and bureau is appropriately considering future identity
        theft-related initiatives.



                                              46
       The OJP agrees with the recommendation. OJP has planned regular bi-monthly meetings
       of its Identity Theft Working Group for the remainder of 2010 to discuss issues
       surrounding victimization, enforcement, training, funding, prevention, outreach, and
       research. Experts in these areas will attend these meetings to share their knowledge with
       the group. A meeting of the Identity Theft Working Group, which included
       representatives from U.S. Federal Trade Commission, was held on March 10, 2010, in
       coordination with Consumer Protection Week (see Attachment). The OJP considers this
       recommendation closed and requests written acceptance of this action from your office.

       Thank you for your continued cooperation. If you have any questions regarding this
response, please contact Maureen A. Henneberg, Director, Office of Audit, Assessment, and
Management, on (202) 616-3282.

Attachment

cc:    Beth McGarry
       Deputy Assistant Attorney General
        for Operations and Management
	

       Marylou Leary
	
       Principal Deputy Assistant Attorney General
	

       Michael Sinclair
	
       Acting Director
	
       Bureau of Justice Statistics
	

       Joye E. Frost
	
       Acting Director
	
       Office for Victims of Crime
	

       Marcia K. Paull
	
       Chief Financial Officer
	

       Maureen A. Henneberg
	
       Director
	
       Office of Audit, Assessment, and Management
	

       Jeffery A. Haley
	
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management
	

       Richard A. Theis
	
       Assistant Director, Audit Liaison Group
	
       Justice Management Division




                                              47
                                                                      APPENDIX IV


                OFFICE OF THE INSPECTOR GENERAL
               ANALYSIS AND SUMMARY OF ACTIONS
                 NECESSARY TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office of the
Deputy Attorney General (ODAG), the Criminal Division, the Executive Office
for United States Attorneys (EOUSA), the Federal Bureau of Investigation
(FBI), the Office of Justice Programs (OJP), and the Office of Community
Oriented Policing Services (COPS). The responses we received from the
ODAG, Criminal Division, EOUSA, FBI, and OJP are incorporated in
Appendix III of this final report.36 In these responses, the agencies
concurred with our recommendations and discussed the actions they will
implement in response to our findings. We will address later in this
appendix the specific responses to each of our recommendations and the
actions necessary to close the recommendations. First, however, we will
respond to certain language in the ODAG’s response that did not pertain to a
specific recommendation.

Analysis of the ODAG Response

        The ODAG stated in its response that the OIG evaluated DOJ’s
prosecution efforts based, in part, on numbers of cases brought and
defendants prosecuted. For clarification, our report does not evaluate DOJ’s
prosecution efforts based on the numbers of identity theft cases brought or
defendants prosecuted. We offer no opinion in our report as to whether the
actual number or substance of DOJ’s prosecutions is appropriate. Instead,
EOUSA data on the number of cases brought and convictions obtained are
provided to illustrate that EOUSA’s data on federal identity theft
prosecutions is incomplete and not a reliable indicator of DOJ’s prosecution
efforts. We believe that improved data collection for identity theft
prosecutions will allow DOJ and EOUSA to better understand DOJ’s overall
identity theft efforts and assist DOJ in prioritizing future identity theft
initiatives.

      The specific data reported for the Northern District of Illinois and the
Eastern District of Pennsylvania was likewise not offered as an indicator of
whether the actual number of cases or substance of the prosecutions
brought in these districts was appropriate. This specific data was offered for
comparison purposes to illustrate that implementation of the President’s
Task Force recommendations, as in the Eastern District of Pennsylvania, may

      36
           Our report did not include any recommendations addressed to COPS, and COPS
did not formally respond to our report.


                                             48
achieve the desired result of increased numbers of identity theft
prosecutions and convictions.

Summary of Actions Necessary to Close Report

Recommendation Number:

1.		   Resolved. The ODAG concurred with our recommendation to
       coordinate its identity theft efforts based on a review of the President’s
       Task Force strategic plan and consultation with the relevant
       components involved in identity theft issues. The ODAG also agreed to
       monitor compliance with the President’s Task Force recommendations
       and ensure further implementation where appropriate.

       This recommendation can be closed when we receive evidence that the
       ODAG has taken steps to better coordinate DOJ’s identity theft efforts.
       In addition, the ODAG must provide the OIG evidence demonstrating
       that DOJ is monitoring compliance with the President’s Task Force
       recommendations. Further, in instances where DOJ and the relevant
       component have determined that implementation of a particular Task
       Force recommendation is impractical, the ODAG should provide a
       written explanation as to why the recommendation cannot or will not
       be implemented.

2.		   Resolved. The ODAG concurred with our recommendation and stated
       that it will identify an individual to assume a more active role in
       coordinating the DOJ’s identity theft efforts in a manner consistent
       with Recommendation 1. The ODAG also stated that it will direct the
       relevant components to designate an individual or office responsible
       for monitoring their agency’s efforts and communicating those efforts
       to DOJ when requested.

       This recommendation can be closed when we receive evidence that
       DOJ has: (1) assigned an individual responsible for assuming a more
       active role in coordinating its identity theft efforts, and (2) directed the
       relevant DOJ components to assign an individual or office responsible
       for monitoring their agency’s identity theft efforts.

3.		   Resolved. The ODAG concurred with our recommendation to conduct
       periodic meetings with the components’ newly designated identity
       theft coordinators to ensure that DOJ’s approach to identity theft
       remains viable and that adjustments are made to DOJ’s approach
       when necessary. This recommendation can be closed when we receive



                                           49
       evidence that meetings with the components’ newly designated
       identity theft coordinators are conducted periodically.

4.		   Resolved. The Criminal Division concurred with our recommendation
       that DOJ and the Criminal Division expand the scope of the Identity
       Theft Enforcement Interagency Working Group (Identity Theft Working
       Group) to more regularly include identity theft-related topics
       previously covered by other subgroups of the President’s Identity Theft
       Task Force, such as education and outreach, data protection, and
       identity theft victims’ issues. The Criminal Division stated in its
       response that it will ensure that the Identity Theft Working Group
       continues to address the full range of identity theft topics that are of
       concern to its members, including complaint reporting and analysis,
       investigation, prosecution, sentencing, prevention and education, data
       protection, and victim assistance.

       This recommendation can be closed when we receive evidence that
       identity theft-related topics including prevention and education, data
       protection, and victim assistance are included in the Identity Theft
       Working Group monthly meetings regularly.

5.		   Resolved. The Criminal Division concurred with our recommendation
       that DOJ and the Criminal Division formalize the identity theft training
       group currently being led by the Criminal Division and consider ways
       to expand its reach to state, local, and tribal law enforcement
       agencies. According to the Criminal Division’s response, the Identity
       Theft Working Group has already created a training subgroup to track
       and develop additional training opportunities for federal, state, local,
       and tribal law enforcement agencies.

       This recommendation can be closed when we receive evidence
       documenting the formal establishment of the training subgroup. The
       Criminal Division should also provide a list of the training subgroup
       member agencies as well as evidence of initial training activities led by
       this subgroup.

6.		   Resolved. EOUSA concurred with our recommendation that DOJ and
       EOUSA transmit a memorandum to all USAOs requiring each office to
       report on its current identity theft efforts, including the status of its
       efforts related to the implementation of the President’s Task Force
       recommendations. EOUSA also agreed that DOJ and EOUSA should
       require all USAOs to report on the steps taken by their district to
       ensure that its case management data and attorney time allocation
       data on identity theft is fully and accurately reported. In its response


                                          50
        EOUSA stated that it will prepare and disseminate such a
        memorandum within 90 days. This recommendation can be closed
        when we are provided with a copy of the memorandum and each
        USAO’s response to the memorandum.

7.		    Resolved. EOUSA concurred with our recommendation that DOJ and
        EOUSA perform a comprehensive assessment of NICLE to determine
        whether it should be housed in DOJ and expanded nationally. This
        recommendation can be closed when we receive the results of the
        assessment of the NICLE database and when we are provided DOJ’s
        determination on expanding the database nationally.

8.		    Resolved. The FBI concurred with our recommendation that it
        reassess its intelligence collection requirements for identity theft and
        conduct periodic comprehensive assessments on the identity theft
        threat. In its response the FBI stated that it will update its intelligence
        collection requirements for identity theft and conduct a threat
        assessment on identity theft. This recommendation can be closed
        when we receive evidence that the FBI’s identity theft intelligence
        collection documents have been updated and that a comprehensive
        identity theft threat assessment has been performed. The FBI should
        also document the frequency with which it intends to update its
        identity theft-specific threat assessment.

9.		    Resolved. The FBI concurred with our recommendation to maintain
        statistics on identity theft investigations, including cases with ancillary
        identity theft elements. The FBI stated in its response that it will
        examine ways to use case management procedures to improve the
        tracking of identity theft cases so that statistics on identity theft
        investigations, including cases with ancillary identity theft elements,
        can be maintained. This recommendation can be closed when we are
        provided evidence that the FBI has established a mechanism through
        which it captures data on its identity theft investigations, including
        investigations with ancillary identity theft elements.

10.		   Resolved. The FBI concurred with our recommendation and stated in
        its response that it will perform an evaluation of the NCIC Identity
        Theft File to determine its continued viability. The FBI also agreed
        that if it determines the file is still viable it will ensure that the
        appropriate personnel are trained on its use. This recommendation
        can be closed when we are provided the FBI’s assessment of the NCIC
        Identity Theft File as well as its determination on the file’s continued
        use.



                                            51
11.		   Resolved. DOJ, the Criminal Division, EOUSA, and the FBI all
        concurred with our recommendation to review the relevant laws and
        Attorney General Guidelines for Victim and Witness Assistance, issue
        to all DOJ components clear guidance for complying with the law and
        Guidelines, and ensure uniform steps are taken by DOJ personnel to
        identify and notify victims of identity theft. In its response, the ODAG
        stated that this effort may include reviewing and revising as necessary
        the Attorney General Guidelines for Victim and Witness Assistance or
        issuing guidance that clarifies what is required under existing
        guidelines and applicable law. The ODAG also stated that DOJ would
        coordinate this effort with the Office for Victims of Crime and other
        relevant DOJ components.

        This recommendation can be closed when we are provided a copy of
        the guidance issued to all DOJ components that clarifies
        responsibilities pertaining to identifying and notifying identity theft
        victims and helps components ensure compliance with applicable law
        and Attorney General Guidelines. Additionally, DOJ should inform the
        OIG of any revisions to the Attorney General Guidelines for Victims
        and Witness Assistance that are related to identity theft victims.

12.		   Resolved. OJP concurred with our recommendation that DOJ, OJP,
        and the Bureau of Justice Statistics (BJS) ensure that identity theft
        statistics gathered through the National Crime Victimization Survey are
        reported in a timely manner. In its response OJP acknowledged that
        data releases from the National Crime Victimization Survey have not
        been timely and that BJS is working to improve this situation.
        Accordingly, BJS anticipates releasing the 2006 through 2008 identity
        theft statistics on its website by June 2010. This recommendation can
        be closed when we receive evidence showing that the identity theft
        statistics for 2006 through 2008 have been released to the public. In
        addition, BJS should describe any planned action designed to ensure
        that identity theft statistics for subsequent years are reported in a
        timely manner.

13.		   Resolved. OJP concurred with our recommendation that DOJ, OJP,
        and BJS evaluate the feasibility of regularly collecting identity theft
        data for individual victims instead of households. OJP stated in its
        response that BJS currently is conducting an evaluation to determine
        the feasibility of collecting identity theft data from individual victims.
        This recommendation can be closed when we are provided with the
        results this evaluation. Additionally, if it is determined that BJS cannot
        collect data for individual identity theft victims, BJS should provide the
        OIG with a detailed explanation supporting this determination.


                                           52
14.		   Resolved. OJP concurred with our recommendation to ensure that its
        identity theft working group continues to meet regularly to make
        certain that each office and bureau is appropriately considering future
        identity theft-related initiatives. In its response OJP stated that for the
        remainder of 2010 it has planned regular bi-monthly meetings of its
        working group to discuss issues surrounding victimization,
        enforcement, training, funding, prevention, outreach, and research.
        OJP also provided evidence that its identity theft working group held a
        meeting on March 10, 2010. This recommendation can be closed
        when OJP provides evidence that its working group continues to meet
        on a regular basis and that its offices and bureaus, through these
        meetings or otherwise, are considering future identity theft initiatives.




                                            53
